<html>
<title> - STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR FISCAL YEAR 2014</title>
<body><pre>[Senate Hearing 113-]
[From the U.S. Government Publishing Office]


 
  STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 
                            FISCAL YEAR 2014 

                              ----------                              


                       TUESDAY, DECEMBER 10, 2013

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 11 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Patrick J. Leahy (chairman) 
presiding.
    Present: Senators Leahy, Shaheen, Coons, Graham, and 
Boozman.

                   Assistance for Jordan and Lebanon

STATEMENT OF HON. ANNE RICHARD, ASSISTANT SECRETARY OF 
            STATE FOR POPULATION, REFUGEES AND 
            MIGRATION

             OPENING STATEMENT OF SENATOR PATRICK J. LEAHY

    Senator Leahy. We are having a series of votes and so we're 
going to have members coming and going. I hope that doesn't 
indicate to anybody a decreased level of interest because the 
issue we will discuss today has a great deal of interest. I 
want to applaud Senator Graham, who represents republicans on 
this subcommittee, for his concerns and attention to this 
issue.
    As I told the Ambassadors from Lebanon and Jordan, if this 
number of refugees were residing in a wealthy part of our 
country like California that is rich in resources, it would be 
an enormous strain. The reality is the impact is far greater in 
their countries. I commend you both for the humanitarian 
support your countries have given. It is a horrific situation 
and, unfortunately, it will probably be reflected in the lives 
of so many of these people, not only throughout the rest of 
their lives, but maybe generations to come.
    Today we will first hear from Anne Richard, the Assistant 
Secretary of State for Population, Refugees and Migration; 
Ambassador Bouran of Jordan; and Ambassador Chedid of Lebanon. 
We will also have Andrew Harper and Ewen MacLeod from the 
Office of the United Nations High Commissioner for Refugees. I 
know the United Nation's witnesses traveled a long distance to 
be here and we're very grateful for that. The U.N. High 
Commissioner, who Senator Graham and I know personally, is 
highly regarded here on Capitol Hill. I thank Senator Graham 
who proposed this hearing.
    We have a humanitarian catastrophe in Syria which continues 
to unfold. No neighbors of Syria have borne the brunt of the 
crisis more directly than Jordan and Lebanon.
    The number of refugees change all the time, and although 
today's official numbers include 557,000 refugees in Jordan and 
825,000 in Lebanon, we know the real numbers are more than 
that. In Jordan, they are living in mostly sprawling tent camp 
as seen in the picture over here. In Lebanon refugees are 
scattered among the general population. For people who have 
traveled to Lebanon, as I have, we know that Lebanon has many 
types of topography where those refugee camps are.
    Your two governments are facing huge strains. The civil war 
in Syria shows no sign of ending and the protracted crisis is 
going to pose long-term burdens on Jordan and Lebanon, as well 
as on Turkey and Iraq. It is going to require significant 
international donor aid for years to come. When and if the war 
ends, how do millions of refugees, or internally displaced 
people, put their lives and their communities back together? 
The task is daunting.
    Jordan is a close ally of the United States. Before this 
crisis Jordan was already accommodating some 2 million or more 
Palestinian refugees. As the Ambassador knows, my wife and I 
have visited some of those refugee camps. Lebanon is also 
struggling with a myriad of problems, not the least of which is 
the violent influence of Hezbollah.

                           PREPARED STATEMENT

    We would like to help both countries, but as Assistant 
Secretary Richard knows, there are other refugee crises around 
the world, particularly in Africa, which also require our 
assistance while our budget remains limited.
    We would like to hear about the most urgent needs. Let me 
start, Ambassador Richard, with you and then we'll go 
alphabetically. I'll go to Ambassador Bouran and Ambassador 
Chedid.
    [The statement follows:]
             Prepared Statement of Senator Patrick J. Leahy
    I want to welcome our witnesses: Anne Richard, who is the Assistant 
Secretary of State for Population, Refugees, and Migration; Ambassador 
Bouran of Jordan and Ambassador Chedid of Lebanon; and Andrew Harper 
and Ewen Macleod from the Office of the United Nations High 
Commissioner for Refugees. Thank you for being here.
    I know our United Nations witnesses traveled a long distance, and 
for that we are very grateful. The High Commissioner, who Senator 
Graham and I know personally, is highly regarded here.
    I also want to thank Senator Graham who proposed this hearing 
because of his deep concern, which we all share, with the Syria 
situation we are here to discuss.
    We have all been following the humanitarian catastrophe that 
continues to unfold for the people of Syria and surrounding countries. 
No neighbors of Syria have borne the brunt of this disaster more 
directly than Jordan and Lebanon, and the world is grateful for their 
generosity.
    Estimates of the total number of Syrian refugees vary, but we are 
told that it exceeds 2.2 million, of who some 557,000 are in Jordan and 
825,000 in Lebanon.
    In Jordan they are mostly living in sprawling tent camps, and you 
see the photograph of one here. In Lebanon they are scattered among the 
general population. But whatever their situation, it is extremely dire 
and it is putting huge strains on the two governments and local 
populations.
    Most worrisome, the civil war in Syria shows no sign of ending. 
This is a protracted crisis that will impose long-term burdens on 
Jordan and Lebanon, as well as Turkey and Iraq, and almost certainly 
require significant international donor aid for years to come.
    And whenever the war ends, the task of helping millions of refugees 
and internally displaced persons rebuild their shattered lives will be 
immense.
    Jordan is a close ally of the United States and before this crisis 
was already accommodating some 2 million Palestinian refugees. Lebanon 
is struggling with a myriad of problems, not the least of which is the 
violent influence of Hezbollah.
    We have an ongoing interest in helping both countries cope with 
this crisis, but as Assistant Secretary Richard knows there are other 
refugee crises--particularly in Africa--that also require our 
assistance and our budget is limited.
    In this hearing we want to hear about the most urgent needs, how we 
can further alleviate the burdens on Jordan and Lebanon as we continue 
to respond to the other demands on our humanitarian aid budget, how 
much other donors are providing and what we can realistically expect 
from them in the future.

    Senator Leahy. Go ahead, Ms. Richard.

                 SUMMARY STATEMENT OF HON. ANNE RICHARD

    Ms. Richard. Thank you very much, Senator Leahy, for 
holding this hearing today to review the humanitarian aspects 
of the crisis in Syria, the consequences for neighboring 
countries, particularly Lebanon and Jordan, and how the U.S. is 
responding.
    At the very outset of the hearing I want to express 
gratitude to this subcommittee for making possible all the 
resources that enable the U.S. Government to be a leader in 
humanitarian response. Last year, the subcommittee provided 
generous funding for humanitarian aid enabling us to respond to 
the crisis of Syria and the surrounding region, and to continue 
doing what we do in response to crises all around the world. 
The U.S. has provided more than $1.3 billion in humanitarian 
aid since the beginning of the crisis. The farsighted action of 
this subcommittee has undoubtedly saved many lives. U.S. 
funding has helped to keep borders open, has let us do more 
when opportunities to do so arose inside Syria, helped us 
respond to a growing regional crisis. We've also been able to 
pay attention to other troubled places around the globe, and 
we've demonstrated, yet again, that the United States is the 
world's humanitarian leader.
    You know quite a bit, I'm sure, already about the crisis. 
There's been massive destruction in the country of Syria 
itself. The crisis has claimed more than 100,000 lives. For 
every one person who has been killed, six other people have 
been injured. And more than 6 million Syrians have fled their 
homes and are still inside Syria trying to survive as best they 
can. Another 2.2 million have fled across the borders of Syria 
to neighboring countries and are considered refugees.
    Photos of Syrian refugee camps in Turkey, or like this one 
in Jordan, are often used to illustrate the crises, but most 
refugees camps in the region are living outside of camps. 
Eighty percent do not live in camps and instead have found 
shelters in local communities and that's partly why, if you 
look on the map here that the United Nations High Commissioner 
for Refugees (UNHCR) has provided, there are 1,600 communities 
across Lebanon that have taken refugees in.
    What has been the impact? Schools have moved to double-
shifts to accommodate Syrian children; hospital beds are filled 
by Syrian patients; rents have risen; and wages have fallen. 
There are water shortages in Jordan and Lebanon. And these 
neighboring governments, and we'll hear more from the 
ambassadors in a moment, are concerned that they must stretch 
the services they provide to their own citizens to reach the 
overwhelming numbers of people in need.
    The State Department and U.S. Agency for International 
Development are major funders of the top humanitarian 
organizations who are responding to the crisis. But we have to 
admit it is a struggle to keep pace with the immense scale of 
this emergency. However, the organizations we fund, both 
international organizations and non-governmental organization, 
and you'll hear from a couple of colleagues from U.N. refugee 
agencies in a moment, are staffed by experienced professionals 
and have succeeded at great personal risk in providing aid to 
millions.
    These organizations are doing a great deal in a 
tremendously difficult, and inside Syria, dangerous, situation: 
13 U.N. staff members have been killed; another 12 U.N. staff 
have been reportedly abducted, 9 U.N. staff are reported 
missing; the Syrian Arab Red Crescent has seen 32 staff or 
volunteers killed in the line of duty, including 10 this past 
November.
    So these agencies are mounting a multifaceted response. 
You'll see in my testimony a good across-the-board spectrum of 
all the things that they're doing. In my written testimony, we 
also look at the fact that the conflict has intensified. That 
2.5 million people live in hard-to-reach areas. And this has 
been a major challenge: to get inside to those people who need 
the help and to do so safely.
    An estimated 250,000 people are trapped in several 
locations that are cities that are besieged or parts of cities 
that are besieged that we cannot get to. And, in fact, we are 
concerned that this is a deliberate tactic to try to starve 
them into submission. We have seen the re-emergency of polio, 
the spread of other diseases, communicable diseases such as 
outbreaks of measles and the Middle East Respiratory Syndrome 
(MERS)-Corona virus.
    Children are not in school. We need to keep the borders 
open so that people do not get trapped inside Syria and we'll 
be monitoring this situation very carefully. We'll probably 
talk today about the arrival of winter, the challenges that 
that presents. U.N. agencies and non-governmental organizations 
(NGOs) are funding insulating tents, providing heaters and 
heating fuel, distributing warmer clothes. And we're also 
concerned about gender-based violence; an issue that I know has 
been of interest to many up here on the Hill. The U.S. 
Government is taking measures to address this scourge. Finally, 
Andrew Harper is here, can also probably talk at greater length 
than I can, about the importance of refugee camp security. So 
those are some of our top issues.
    The U.S. is working to support regional stability. We're 
trying to do more inside Syria. The United States Agency for 
International Development (USAID) works with NGOs and World 
Food Program. We support U.N. High Commissioner for Refugees, 
International Committee of the Red Cross, United Nations Relief 
and Works Agency (UNRWA) for Palestinians who are trapped 
inside Syria. And we seek to use every channel possible to get 
aid into those who need it, providing supplies or services to 
Syrians across all 14 governances of Syria.
    We are also supporting the neighboring governments and 
communities hosting refugees and I discussed that in my written 
testimony. And looking ahead, we believe the U.S. must remain a 
leader in humanitarian response. We are focusing, right now, on 
the October 2 statement, Presidential statement that came out 
of the U.N. Security Council, that called for all of the 
parties to the conflict to allow the expansion of relief 
operations; to allow medical care to get to the wounded and 
sick; to stop the deliberate targeting of medical facilities 
and personnel that has been a gruesome hallmark of this crisis.
    Humanitarian leaders have found it very difficult to reach 
people in need. We have recently gotten some agreement from the 
Syrian regime. They've announced that they will allow 
assistance to enter Syria from Jordan, Lebanon, and Iraq. 
They've agreed to issue visas. They've agreed to streamline 
convoy procedures. But we have to see whether this actually 
happens on the ground. I am not optimistic, but this is a key 
moment in this crisis as the world comes together to try to 
make a difference in what's happening there. And finally, we 
need to address the rampant violations of international 
humanitarian law that have unfortunately been a hallmark of 
this conflict.
    In closing, this has demanded a great deal of attention 
from our Government's foreign policy makers, not just the 
humanitarian offices, but also the diplomats. And we're very 
fortunate that we've been led by folks in the White House, and 
Secretary Kerry, and our seventh floor in a whole series of 
efforts. Just in the past 2 weeks, there have been discussions 
on overcoming obstacles to humanitarian assistance at 
trilateral meeting between the U.S., U.N., and Russian in 
Geneva; I took part in a high-level dialogue convened by the 
U.N.'s Emergency Response Coordinator, Valerie Amos, to try to 
discuss some of these access issues; and there is also periodic 
gatherings of the U.N.'s emergency directors, all coming 
together to make a difference.

                           PREPARED STATEMENT

    Finally, in the next coming weeks, we'll see the U.N. issue 
a major appeal for assistance. And Kuwait, again, plans to co-
host a pledging conference with the United Nations that's 
scheduled for January 15, 2014. We can't do the things that 
we're doing without your support, without your help, and we're 
tremendously grateful for what you've done.
    Thank you.
    [The statement follows:]
                Prepared Statement of Hon. Anne Richard
    Thank you for holding this hearing today to review the humanitarian 
aspects of the crisis in Syria, the consequences for neighboring 
countries, particularly Lebanon and Jordan, and how the United States 
is responding. At the very outset of this hearing, I want to express 
gratitude to the subcommittee's Chairman and Ranking Member, members 
and staff for appropriating the resources that make possible the U.S. 
Government's leadership in international humanitarian response.
    Last year, this subcommittee provided generous funding in the 
Federal budget accounts that channel contributions to crises response 
overseas.
    These humanitarian accounts include the Migration and Refugee 
Assistance Account that resides in the Population, Refugees, and 
Migration Bureau at the State Department that I head. Our partner in 
humanitarian response is the United States Agency for International 
Development's (USAID) Bureau for Democracy, Conflict and Humanitarian 
Assistance (DCHA) that manages disaster assistance and food aid.
    Together, fiscal year 2013 funding for humanitarian purposes 
totaled nearly $5.2 billion for humanitarian purposes worldwide. Of 
this, more than $1.2 billion has been devoted to responding to the 
crisis in Syria and the surrounding region. (When added to the nearly 
$120 million contributed in fiscal year 2012, the United States has 
provided more than $1.3 billion in humanitarian aid since the start of 
the Syria crisis.)
    The far-sighted action of this subcommittee has undoubtedly saved 
many lives. It has helped to keep borders open, because we were able to 
demonstrate to neighboring countries that we would not only speak 
supportive words but also share the burden of coping with large flows 
of refugees. Fiscal year 2013 funding allowed us to do more when 
opportunities arose inside Syria and helped us respond to a situation 
that rapidly grew into a regional crisis. It permitted us to devote 
considerable attention and energies to the Syrian crisis while not 
neglecting other troubled places around the globe. Finally, our 
contributions demonstrated yet again that the United States is the 
world's humanitarian leader.
                       description of the crisis
    You already know some of the basic facts of the crisis, which I 
will briefly summarize: What began as popular protests in spring 2011 
evolved into episodic battles between opposition and government forces 
in certain cities, and then further evolved into a brutal war with many 
fronts. The conflict has claimed more than 100,000 lives, destroyed 
buildings and industries, attracted radical foreign fighters, and 
severely divided Syrian society. For every one person who has been 
killed, six other people have been injured.
    More than 6 million Syrians have fled their homes but are trying to 
survive inside Syria in other areas; another 2.2 million have crossed 
Syria's borders and thus are considered refugees. A total of 9.3 
million civilians in Syria are in need of humanitarian assistance, a 
staggering 40 percent of the pre-war population.
    When the refugees first crossed into neighboring countries, many 
were welcomed and benefited from extraordinary acts of generosity. In 
Jordan and Lebanon, early refugees lived with friends, relatives and 
host families. Even after camps and transit centers were instituted in 
Jordan, the government allowed refugees to be ``bailed out'' by 
friends, relatives and sometimes caring strangers. However, as time has 
progressed and the number of refugees has increased, the welcome has 
started to wear thin in some places and antagonism toward refugees has 
grown in the region. At times, violence from the Syria conflict has 
spilled across borders into Turkey, Lebanon, and Jordan and has 
aggravated already-heightened sectarian tensions in Lebanon.
    Photos of Syrian refugees in camps in Turkey or Jordan are often 
used to illustrate the crisis, but most refugees in the region--more 
than 80 percent--do not live in camps and instead have found shelter in 
local communities.
    Refugees are living in more than 1,600 communities across Lebanon. 
One of these communities is the town of Arsal in northeast Lebanon. 
Arsal's 35,000 residents had already welcomed 19,000 refugees when, in 
mid-November, they suddenly received an additional 20,000 refugees in 
less than 1 week who were fleeing new clashes in Syria. As we've seen 
in other communities in Lebanon and Jordan, the recent influx into 
Arsal has shifted the delicate demographic balance of the area, a 
phenomenon that threatens to further exacerbate social tensions. Arsal 
could not absorb these new refugees into its existing stock of housing, 
so the Government of Lebanon authorized the United Nations to set up 
tents for some of the newest arrivals, creating Lebanon's first 
``formal tented settlement'' for Syrian refugees.
    The impact on many communities across the region is overwhelming. 
Schools have moved to double-shifts to accommodate Syrian children. 
Hospital beds are filled by Syrian patients. Rents have risen and wages 
have fallen as a result of the competition for housing and jobs. There 
are water shortages in Jordan and Lebanon. The drain on water resources 
is especially severe in Jordan due to its lack of water; the Government 
of Jordan is already struggling to cover subsidies for water for 
Jordanian citizens. Both governments--as well as the Governments of 
Iraq and Turkey--are concerned that they must stretch the services they 
provide to their own citizens to reach the overwhelming numbers of 
people in need living in their countries.
    According to a World Bank/UN assessment, 170,000 Lebanese are being 
pushed into poverty by the Syria crisis. Lebanon will likely suffer 
cumulative economic losses of $7.5 billion by the end of 2014 and a 
doubling of the unemployment rate to 20 percent. Lebanese Government 
expenditures have increased $1.1 billion due to the increased demand 
for public services, according to the World Bank/UN assessment. 
Turkey's Government estimates it spent more than $2 billion on refugee 
response. And Jordan has experienced an up to 27 percent percent 
increase in the cost of food in the past year.
                         humanitarian response
    The State Department and USAID are major funders of the top 
humanitarian organizations responding to the crisis in Syria. It is a 
struggle to keep pace with the immense scale of this emergency. 
However, the organizations we fund--both international organizations 
and non-governmental organizations--are staffed by experienced 
professionals and have succeeded, at great personal risk, in providing 
aid to millions. Fourteen UN agencies plus the International 
Organization for Migration (IOM) and the International Committee of the 
Red Cross/Red Crescent (ICRC) operate inside Syria. Fifteen 
international non-governmental organizations (NGOs) are authorized by 
the Syrian regime to operate inside the country.
    These organizations are doing a great deal in a tremendously 
difficult--and, inside Syria, dangerous--situation. Another set of 
statistics is grim: the roster of humanitarian aid workers killed while 
in the line of duty. Thirteen UN staff members have been killed and 
while another dozen of UN staff have reportedly been abducted, and nine 
UN staff are reported missing. The Syrian Arab Red Crescent has seen 32 
staff or volunteers killed in the line of duty, including 10 this past 
November.
    In an attachment (ATTACHMENT #1) to this testimony, I provide a 
summary of the multi-faceted response that has been mounted by UN 
agencies and NGOs working with U.S. support, including the UN Refugee 
Agency (UNHCR), the World Food Program (WFP), the UN Children's Fund 
(UNICEF) and the United Nations Relief and Works Agency for Palestine 
Refugees in the Near East (UNRWA). Together, these agencies are 
providing the food, clean water, shelter, medical care and other 
essentials that are necessary to live. They also go beyond these basic 
needs and seek to protect the most vulnerable members of Syrian society 
today--displaced children, at-risk women and girls, the elderly and the 
disabled--from threats as diverse as cold winters, unsafe play areas, 
poor sanitation, child marriage and violence against women and girls.
    The funding appeals of $4.3 billion issued by the UN to date 
reflect the enormous scale of humanitarian need and, while government 
donors have been generous, only about two-thirds of the money needed 
was raised this year. The Bureau of Population, Refugees, and 
Migration's (PRM) primary humanitarian partner, UNHCR, has received 
over $700 million since 2012 for Syrian refugees in neighboring 
countries, as a result of contributions from all donors--a huge 
investment making a major difference in the lives of millions that the 
United States is helping to finance.
    Now that we have outlined the overall extent of the crisis, let's 
take a closer at some of the day-to-day challenges to aid delivery.
    First, there are indications that the conflict has intensified. 
Armed clashes increased from 500 in January, to about 600 in June, to 
900 in October, according to UN statistics. There has also been a surge 
in clashes between different factions of opposition forces.
    Second, inside Syria, 2.5 million people are living in hard-to-
reach areas, where they receive limited to no assistance. An estimated 
250,000 people are trapped in several locations that are besieged and 
without access to humanitarian aid. These locations include Old City 
Homs, Darayya, Yarmouk, and Eastern Ghouta, and Moademiyeh in Rural 
Damascus. Villages in Aleppo governate (Nubl and Az-Zahraa) are 
besieged by opposition forces. In some communities there have been no 
humanitarian deliveries in months; in other places it has been more 
than a year. There are reports of starvation, and while we cannot 
confirm these reports, we know that lack of food, sanitation, and 
healthcare creates dire conditions.
    Another sobering aspect of the conflict is the re-emergence of 
polio and the spread of other diseases. The World Health Organization 
(WHO) now confirms 17 cases of polio, a disease not previously seen in 
Syria since 1999. There are likely many more undetected cases in Syria 
and we are concerned that there is a high risk of the disease spreading 
throughout the region. The UN moved quickly with a campaign to 
vaccinate 2.2 million children, including 1.6 million for polio. We 
have also seen an increase in other communicable diseases, such as 
outbreaks of measles and the MERS-Corona virus.
    Children Not in School: There are an estimated 2.3 million children 
inside Syria who no longer attend school. There are over 1.1 million 
Syrian refugee children in the region, of whom 60 percent are not in 
school, including 80 percent of refugee children in Lebanon and more 
than half the refugee children in Jordan. Some refugee children are 
bullied in school or find they have fallen behind their grade and thus 
lose interest in showing up for classes. Taking a lesson from the Iraqi 
refugee emergency, we are working with governments to avoid parallel 
service provision, and need to find creative solutions to get as many 
children as possible back in school, whether in the formal education 
system or in community-based learning programs. We are working with 
international organizations to identify and support unique and 
innovative programs, such as the No Lost Generation Initiative, so that 
as many Syrian children as possible receive an education.
    Need for Open Borders: One concern is whether all of the people who 
are in Syria and want to flee are able to escape across borders. As the 
crisis has continued, we have seen the numbers of refugees crossing 
into neighboring countries wax and wane, often due to the extent to 
which fighting occurs inside Syria. At times, Jordan, Turkey, Lebanon, 
and Iraq have taken steps to control or temporarily stop the flow of 
these refugees. Smugglers charge high prices to help get Syrians out. 
We have asked all of the countries neighboring Syria to maintain ``open 
border'' policies so that those who need to flee can do so. We remain 
concerned that people could be trapped inside Syria, and we will 
monitor this situation as best we can.
    Arrival of Winter: This part of the world can be an area of harsh 
cold. Some refugee areas typically have consecutive days/weeks of sub-
freezing temperatures and heavy snowfall. In the region, more than 40 
percent of Syrians living outside of camps need help to stay warm this 
winter. In Lebanon, an estimated 90,000 refugee households need this 
help. The UN agencies and NGOs we fund are insulating tents, providing 
heaters and heating fuel, and distributing warmer clothes and plastic 
sheeting. They are also undertaking renovations to collective shelters 
in order to weather-proof them. This is already starting out to be a 
rough winter with bad flooding and farmers in Lebanon predicting the 
coldest in 100 years. At the same time, healthcare workers will boost 
health monitoring to track and guard against winter-borne illnesses 
such as the flu. Programs supporting shelter, health and other winter-
related items will cost $138 million, according to preliminary UN 
estimates.
    Services for Urban Refugees: Urban refugees are often invisible and 
dispersed among local people in poor communities. It can be difficult 
to identify them and provide the help that will reach them. In Turkey, 
for example, more than two-thirds of Syrians are living in cities, not 
in camps, and many are unregistered. They are reluctant to present 
themselves to the government, but still need help, especially as winter 
approaches. Urban refugees face the added challenge of navigating an 
unfamiliar language and environment when enrolling their children in 
school or seeking health services.
    Gender-Based Violence: We are very concerned by reports of gender-
based violence (GBV) among refugees. The United States Government is 
taking measures to address this scourge. At the State Department, we 
are working closely with humanitarian organizations (UN and 
international NGOs) to increase protection for vulnerable refugees. As 
a very first step, we seek to meet their basic needs for shelter, food, 
clothing, water and sanitation, and healthcare. We also need to 
incorporate consultations with women and girls into aid programs, 
ensuring they have equitable access to assistance, addressing their 
unique needs (such as sanitary supplies and maternal health) and 
identifying and mitigating risks for harm, exploitation, and abuse. We 
are supporting specialized programs aimed at preventing and responding 
to violence, including medical and counseling services for rape 
survivors, safe learning and healing spaces for children, particularly 
girls, and efforts to raise awareness about the risks of urgent issues 
like early marriage.
    Refugee Camp Security: Violent crime, theft, rioting, and other 
security concerns threaten the wellbeing of residents in Jordan's 
Za'atari Refugee Camp, a sprawling camp of about 80,000 Syrian 
refugees. Previously, there was no police presence inside the camp, 
with the Gendarmerie providing perimeter security. The Jordanian police 
began camp patrols in late 2013. Britain, Canada, and the U.S. have 
each undertaken special initiatives to help enhance security.
         united states is working to support regional stability
Doing More Inside Syria
    The United States has gone to great lengths to diplomatically 
isolate the regime of Bashar al-Assad. We continue to be a major 
supporter of efforts to get aid into Syria to the people who need it, 
so that innocent families can endure and survive the punishing war 
raging around them. Humanitarian aid is delivered based solely on need 
and regardless of political or religious affiliation. U.S. humanitarian 
assistance is separate from any efforts to support the moderate 
opposition. U.S.-supported humanitarian assistance--totaling more than 
$700 million--is provided in a neutral and impartial manner inside 
Syria by reputable UN and other humanitarian aid organizations. The 
Syrian Arab Red Crescent has been a strong partner to the UN and others 
aid organizations, helping them to reach as many Syrians in need as 
possible and at great personal risk. We seek to use every channel 
possible to get aid to those who need it, providing life-saving 
supplies and service to Syrians across all 14 governorates of the 
country. Our efforts are focused on four key areas: emergency medical 
care, food assistance, the provision of much-needed relief supplies, 
and the protection of vulnerable populations. The United States has 
provided emergency medical care to those caught in the crossfire 
through 260 medical facilities across Syria including field hospitals 
and makeshift clinics that have treated nearly one million patients. We 
also saw the need for more medical staff capable of saving lives so we 
trained 1,500 Syrian volunteers to provide emergency first aid care. 
The United States remains the single largest donor of emergency food 
assistance for the Syria crisis. Additionally with the arrival of cold 
weather, we have focused on the provision of winter relief supplies--
such as thermal blankets, warm clothing and mattress--as well as 
improving infrastructure and shelters as the winter sets in this year.
Support to the Governments and Communities Hosting Refugees
    The United States Government must support the neighboring countries 
as they respond to the Syria crisis. Neighboring countries are 
providing asylum for refugees and are also the logical places from 
which to send assistance into Syria. In order to support their efforts, 
we not only provide assistance but also encourage other donors, 
particularly wealthy governments that have not traditionally given to 
humanitarian agencies, to step up their contributions. But the victims 
of Syria's violence need much more.
    The latest UN plans aim to do more to help neighboring countries by 
boosting the resilience of local communities to withstand the effects 
of taking in so many refugees. This requires continued efforts to 
ensure that relief operations and longer-term development projects are 
carried out at the same time and are well coordinated.
    Lebanon continues to keep its borders open and is now hosting the 
largest numbers of refugees in the smallest country in the region. 
Lebanon has opened its hospitals and clinics to Syrian refugees and is 
coping with the strain on its public services. Lebanon has allowed 
refugee children to enroll in local schools that already were 
overcrowded with local students, yet the demand for more refugee 
enrollment is even greater.
    The U.S. Government continues to support Lebanon through emergency 
response and longer-term development assistance. USAID is working to 
improve the lives of Lebanese citizens and their communities by 
enhancing economic opportunity, increasing access to education, 
improving water and wastewater services, strengthening civil society 
and municipalities, and protecting the environment.
    At the meeting of the International Support Group for Lebanon held 
at the UN in September, Secretary Kerry announced plans to provide an 
additional $30 million in direct assistance for growing needs in 
Lebanon's host communities. We are working to identify ways we can help 
address deteriorating economic conditions and gaps in delivery of 
important services, particularly related to health and education, which 
will help both Lebanese and refugees from Syria.
    Since 2012, the United States has provided $300 million in 
bilateral budget support to the Government of Jordan, on top of our 
annual budget support, specifically to offset spending Jordan has 
devoted to hosting refugees from Syria. We have also provided over $30 
million to help alleviate strains on the water and education systems. 
USAID has built five new schools in northern Jordan and is expanding 67 
existing schools. They are also supporting a water program in 
communities in northern Jordan hosting a large number of refugees, 
focused on water collection, storage, conservation and the repair of 
water pipelines. New programs have also been launched to help community 
members, parents, and schools cope with tensions between Syrians and 
Jordanians. WFP vouchers are used by refugees to buy food from 
merchants, thus providing another benefit directly to local people. The 
United States also provided a $1.25 billion sovereign loan guarantee to 
help Jordan respond to external pressures, like the Syria crisis, while 
it continues its economic reform program.
     looking ahead--why the united states must remain a leader in 
                         humanitarian response
    The United States, other countries and UN humanitarian leaders are 
working intensively to ensure that the U.N. Security Council's 
Presidential Statement from October 2 is implemented. That document 
calls on all parties to the conflict to respect international 
humanitarian law and sets out a list of steps that, if followed, would 
do much to help protect and aid the Syrian people. The steps include 
approving the dispatch of convoys to besieged areas, facilitating the 
expansion of relief operations, providing medical care to the wounded 
and sick, and stopping the deliberate targeting of medical facilities 
and personnel. Millions of people currently suffering in Syria depend 
on the success of our humanitarian diplomacy.
    Humanitarian leaders have found it difficult to reach populations 
in opposition held and contested areas because the Syrian Government 
had requested all official humanitarian aid go through Damascus first. 
The Syrian regime recently agreed to allow assistance to enter Syria 
from Jordan, Lebanon, and Iraq and to travel straight to communities in 
need. The regime has agreed to issue 52 of 79 pending visa requests by 
international humanitarian personnel, including those of the UN's 
security staff which are needed to enable humanitarian agencies to 
reach people in need in the most dangerous areas of the country. The 
regime has further agreed to streamline convoy procedures and to allow 
the UN to open additional regional hubs for aid deliveries so that aid 
does not have to move through Damascus to reach those in need elsewhere 
in the country. However, these are only words, and we need to see this 
agreement implemented on the ground. Recent progress on access needs to 
be sustained and expanded.
    Access to those in need would be one contribution to addressing the 
rampant violations of international humanitarian law that have 
unfortunately been a hallmark of the Syria conflict. In Syria we have 
seen evidence of summary executions, unconscionable targeting of health 
facilities and medical personnel, and attacks on innocent civilians 
such as schools full of young students in schools. As recently as 
November 11, the shelling of a school in Damascus killed or injured 16 
children in their classrooms; that same day, four other children and a 
driver were killed when shell hit their school bus.
    The United States and others are speaking out. Earlier this year 
the ICRC's head of delegation in Syria has said, ``Little regard is 
being paid to the population as the hostilities intensify. Attacks are 
causing a very high number of casualties among civilians. We strongly 
urge all sides involved in the fighting to take immediate action to 
fully comply with international humanitarian law.'' Just last week, the 
UN Under Secretary General Valerie Amos told the UN Security Council 
that ``The call by this Council to take all appropriate steps to 
protect civilians has clearly not been heeded and civilians are paying 
heavily for this with loss of life, serious physical injury, 
psychological trauma and damage to property.''
    The Syria crisis has demanded a great deal of attention from our 
Government's foreign policy makers. Those of us working on the 
humanitarian response have benefited from the keen interest of the 
Secretary and other senior diplomats, including Deputy Secretary Burns, 
Under Secretary Sherman, colleagues of the National Security Staff at 
the White House and those assigned to U.S. Embassies and missions, 
including the missions to the UN. We meet often with the leaders of UN 
humanitarian agencies and our counterparts from other governments that 
are deeply engaged; we routinely reach out to other donors to encourage 
them to give more and to coordinate the aid that is given. Just in the 
past two weeks, there have been discussions on overcoming obstacles to 
humanitarian assistance at the trilateral meeting between the United 
States, the UN, and Russia in Geneva, a high-level dialogue to discuss 
access issues convened by the UN's Emergency Response Coordinator, 
Valerie Amos, and the latest in a series of periodic gatherings of the 
UN's Emergency Directors together with representatives from the host 
and donor countries.
    In the coming weeks the UN will issue new funding appeals for 2014. 
We expect them to be larger and more comprehensive than previous 
appeals, projecting needs for the whole of 2014 instead of only the 
first 6 months. The appeals will respond to the immediate humanitarian 
needs of those inside Syria and refugees in the region and will look at 
ways the humanitarian community can address some immediate needs in the 
refugee hosting communities to strengthen local service delivery and 
resilience. The UN has worked to make the appeals cost-efficient, high 
impact and provide accountability benchmarks for refugees and donors.
    Finally, Kuwait again plans to co-host a pledging conference with 
the United Nations and it is scheduled for January 15, 2014. With your 
help, the United States should again be in a position to serve as a 
leading donor and voice to spur on giving from other countries. Support 
from the United States and many other governments will be critical to 
maintain stability and hospitality in the region. The involvement of 
this subcommittee continues to be crucial.
    I thank this subcommittee for the role it has played in making 
possible a strong response to the crisis in Syria. I trust this 
testimony provides some of the evidence for all of the life-saving and 
life-sustaining work that has been done through U.S. aid programs. I am 
happy to answer your questions.
    Thank you.

                            (ATTACHMENT #1)

           what the international community has accomplished
                      highlights of aid deliveries
    Convoys: A total of 41 UN aid convoys to hard-to-reach areas, 
involving several UN agencies, have assisted 2.9 million Syrians during 
2013. They have reached more than a half million persons in opposition-
held areas, a half million in government-held areas, and 1.8 million in 
contested areas. Negotiations to move more convoys continue.
    Food: The U.S. Government supports food assistance efforts 
currently reaching more than 3.8 million people within Syria (family 
rations and flour-to-bakeries) and over 1.3 million Syrian refugees in 
five neighboring countries (over 90 percent of whom receive food 
vouchers). Within Syria this includes 3.4 million reached by WFP in 
government-controlled, opposition-controlled, and contested areas, and 
approximately 400,000 through cross-border NGO programs in areas not 
reached by WFP. This U.S. Government (USG) food assistance includes 
approximately $372 million through WFP and $71 million through NGOs, 
provided through primarily cash support but also including 
approximately $38.2 million in U.S.-origin Title II in-kind food.
    Vaccinations: Vaccination campaigns for measles, rubella, and polio 
have been organized by WHO and UNICEF and supported by those agencies 
and UNHCR. These efforts have reached at least 1.4 million children 
inside Syria. Vaccinations campaigns carried out for refugees and 
locals have reached 3.8 million refugees and local children in Turkey 
and Jordan. In Lebanon, the first of a series of nationwide polio 
vaccination campaigns in early November reached 580,770 children under 
the age of 5, resulting in a 98.4 per cent coverage rate nationwide. 
The total included 8,400 children vaccinated at five border entry 
points, and 25,500 Palestinian children vaccinated through UNRWA. U.S. 
Government-supported programs aim to help refugees and also improve the 
ability of local health services to meet local residents' needs.
    Basic/Essential Household Supplies: UNHCR and partner NGOs have 
reached 3.2 million people inside Syria with non-food items in 2013.
    Medical Care: WHO and partners have provided medical treatment to 
2.7 million people inside Syria.
    Water: UNICEF and partner NGOs have reached more than 10 million 
people with safe water inside Syria. The U.S. Government supports 
programs that build latrines and ensure clean water is available.
    Psychosocial: UNICEF and partners have reached 460,000 children 
with psychosocial support inside Syria.
    Education: Despite widespread destruction and closings of schools 
inside Syria, UNICEF and partner NGOs have provided education supplies 
to 620,000 children in 12 governorates, as well as 118 prefabricated 
classrooms. The U.S. Government supports programs to enhance refugee 
children's access to schools, including learning programs that help 
youth who have fallen behind in their studies to catch up and enroll at 
local schools at appropriate grade levels.
    Palestinian Refugees Inside Syria: The United Nations Relief and 
Works Agency (UNRWA) continues its efforts to provide support to 
Palestinian refugees in Jordan, Lebanon and Syria, including those who 
have fled the fighting that has enveloped and consumed Palestinian 
neighborhoods in Syria.
    Shelter: Innovative programs in Jordan and Lebanon helps property 
owners in local communities upgrade unfinished structures into suitable 
refugee housing, in exchange for free rent to refugees.
    Child Protection: Special recreation, educational, and mental 
health activities have reached 100,000 Syrian children in Jordan and 
Lebanon.
    Gender-Based Violence: The U.S. Government supports programs to 
prevent and respond to sexual and gender-based violence. This includes 
enhancing the capacity of local service providers to assist refugees to 
benefit from their services and to manage the individual cases of 
refugees.
    Safety: A U.S. Government project in the Bureau of International 
Narcotics and Law Enforcement (INL) supports the Jordanian Government's 
efforts to improve security in the Za'atari refugee camp. It helps 
Jordanian police to train approximately 600 Syrian refugee residents 
over 6 months to act as a safety presence and deterrent to crime in the 
camp, and to report major issues to police.

                         (END OF ATTACHMENT #1)


    Senator Graham. Madam Ambassador.
STATEMENT OF HON. ALIA BOURAN, AMBASSADOR, HASHEMITE 
            KINGDOM OF JORDAN
    Ambassador Bouran. Thank you very much, sir.
    Honorable Chairman Senator Patrick Leahy, Honorable Ranking 
Member Senator Lindsey Graham, and honorable subcommittee 
members, good morning.
    Thank you for the invitation and the opportunity to testify 
before your esteemed subcommittee today on behalf of the 
Government of the Hashemite Kingdom of Jordan. I'm equally 
happy and glad to be here today with Assistant Secretary Anne 
Richard, and with my colleague, the Ambassador of Lebanon, 
addressing a very important issue.
    At the outset, allow me to extend His Majesty King Abdullah 
II's appreciation to all members of this subcommittee for your 
longstanding friendship and continuous support to Jordan.
    Chairman Leahy, Ranking Member Graham, we thank you for 
your strong leadership on this committee and, again, support 
for Jordan. The American people have played a pivotal and 
leading role in providing assistance and support to Jordan over 
the years and for that we are truly grateful.
    My testimony this morning will focus on the Jordanian 
perspective vis-a-vis the recent regional and domestic 
challenges. I hope to demonstrate, through my overview, the 
challenges we face as a country during these times and the 
value of our unique strategic alliance to safeguard our joint 
interests and address the issues at hand.
    We, in Jordan, believe the effects of what's happening 
right now in the Middle East will extend far beyond its borders 
if we do not respond and address the issues firsthand. The 
pressures and dangers are mounting by the day. The violence in 
neighboring Syria continues to escalate resulting in the worst 
humanitarian disaster unmatched in our recent history. In 
addition, the Palestinian-Israeli conflict continues to consume 
the resources needed to build a better future and feeds 
radicalism and extremism around the world.
    I would like to take a moment here to recognize and express 
our gratitude to President Obama and Secretary Kerry for their 
relentless efforts and commitment to the ongoing peace efforts 
as well as other pressing regional matters.
    Over the past 2 years, we witnessed a historical regional 
transformation that swept our region. During these turbulent 
times, Jordan managed to navigate calmly and provided 
sanctuary, security and stability to those seeking refuge and 
shelter. Jordan is now hosting over 2 million Palestinian 
refugees, nearly half a million Iraqis, and over 1.3 million 
Syrians. Jordan stands firm in its commitment to keep its 
borders open. We see this as a humanitarian duty and we have no 
plans to shy away from this commitment.
    Chairman Leahy, Ranking Member Graham, today, we are 
witnessing the worst humanitarian plight in the region's recent 
history. The crisis in neighboring Syria has resulted in grave 
human cost, displacement, and suffering. In turn, this has 
posed an unprecedented challenge on my country.
    Due to Jordan's geopolitical positioning and close ties 
with the Syrian people, we are able to monitor and keep a close 
eye on what's happening right there. I would like to draw your 
attention to three main points that best characterize the 
conflicts and explosive nature of this----
    Senator Graham [presiding]. Madam Ambassador, I've got to 
interrupt with 2 minutes left--if we could just recess right 
there.
    Ambassador Bouran. Okay.
    Senator Graham. So you can have your three main points 
without interruption.
    Ambassador Bouran. Sure. Of course.
    Senator Graham. When Senator Leahy comes back, we'll be 
continuing. We'll stand in recess just for a minute.
    Ambassador Bouran. Okay. Sure. Of course. Of course. All 
right. Thank you.
    [Recess.]
    Senator Shaheen [presiding]. Good afternoon. I apologize 
to--or good morning, I guess. We're still in the morning. I 
apologize to all of you for our running back and forth. I'm 
sure that Senators Leahy and Graham have said the same thing 
and I think we should go ahead and begin, Madam Ambassador, and 
if you could continue with your testimony, Senator Leahy will 
be back shortly.
    Ambassador Bouran. Sure. Thank you so much, Senator. Thank 
you so much for giving me the opportunity.
    Just a minute ago, I was saying that due to Jordan's 
geopolitical positioning and close ties with the Syrian people, 
we are able to monitor and keep a close eye on the 
deteriorating situation over there. I would like to draw your 
kind attention to the main three points or traits that best 
characterize the conflicts and the explosive nature of the 
Syrian crisis.
    First, this is a rapidly escalating crisis that has a 
sectarian component. Its grounds have become a magnet for 
radicals and extremists from all over the world, some of which 
seek to export the crisis into neighboring countries. What has 
made matters worse is the presence and use of unconventional 
weapons. These two components make a dangerous combination, 
which bears unimaginable consequences that directly impact our 
security both regionally as well as locally.
    Second, the humanitarian dimension that has emerged from 
this multifaceted crisis, whether inside Syria or in 
neighboring countries, has reached an alarming state. Our brave 
and able Armed Forces are witnessing firsthand the human 
suffering as they receive the elderly, men, women and children 
at the borders fleeing from the atrocities and from the human 
tragedy happening inside Syria.
    I would like here to take a moment to include and applaud 
all the U.N. agencies, particularly the United Nations High 
Commissioner for Refugees (UNHCR) and their donor partners, on 
their relentless and continuous efforts to alleviate the 
suffering of the Syrians. And Jordan is committed to work with 
them closely on this noble cause.
    Third, the overstretched infrastructure and services as 
well as the draining of our own resources are overwhelming 
factors that face all Jordanian host communities and further 
undermine our ability to assume our responsibilities. So far, 
the number of Syrians who sought refuge in Jordan exceeds 
600,000 which represents 10 percent of our population. One 
hundred thirty thousand of the 600,000 are present in camp and 
the rest, ma'am, are spread into our cities and our villages, 
yet again, having a big impact on our resources and on our 
already-stretched infrastructures.
    Jordan, with the help of the international community, is 
focusing primarily on accommodating the immediate needs of 
Syrian refugees in the Kingdom as they adapt to their 
surroundings in Jordanian cities and villages; however, the 
refugee dependency on governmental services and infrastructure 
will add more pressure and will eventually increase in the 
immediate future.
    To put things in perspective, I would like to share with 
you, with the little time I have, some key figures that reflect 
the level of impact this crisis, sorry, has on Jordan.
    After spending hundreds of millions of dollars on reforming 
the education sector in Jordan during the last decade, Jordan 
was forced to reinstate the double-shift system in our schools 
in order to admit, and I got to know this number yesterday, 
97,000 children in our schools alone, this year alone; while 
there are still an additional 70,000 children out of school. 
Accordingly, the estimated needed capital expenditure to build 
100 new schools to accommodate all the increasing number of the 
Syrian children inside the schools will definitely exceed more 
than $135 million.
    The public healthcare sector, Syrians are granted the same 
access to public health services as Jordanians. This adds an 
extra burden on this vital sector, which is subsidized by the 
government. More than 9 percent of our public budget is 
allocated to healthcare. Furthermore, the estimated cost to 
build new hospitals and health centers and equip the ones that 
we have right now exceeds $124 million. In addition, the 
estimated cost of added healthcare services to the 600,000 
Syrian refugees is expected to reach $168 million. This year, 
we have vaccinated against polio, measles and other infectious 
diseases over 83,000 children. And those diseases, I mean, 
Jordan had eradicated them a long time ago from our medical 
history inside Jordan.
    In the labor market, there are concerns over the increasing 
number of Syrian job seekers as they compete with Jordanians 
for low-wage jobs. Today, around 180,000 jobs, usually occupied 
by Jordanians, have been taken by Syrians. This figure is 
noteworthy since our unemployment rate exceeds 13 percent of a 
population of only 7 million. Subsequently, this has created 
social tensions in communities that are already facing high 
unemployment, poverty, and difficult economic conditions.
    In the energy sector, there is a significant additional 
demand on electricity with the large number of Syrians now 
present in the northern part of the Kingdom. What made matters 
even more challenging was the sharp drop in the gas supplies 
from Egypt due to the interruption of the gas pipeline in the 
past 2 years. This further exasperated Jordan's difficult 
fiscal position, which resulted in an energy bill that reached 
19 percent of our GDP in 2011 and 23 percent of our GDP in 
2012, compared to an average of 10 percent over the past 
decade.
    Water has always been a scarce resource in Jordan. We are 
one of the poorest countries in terms of water resources. And 
the added strain on the existing infrastructure requires both 
rehabilitation and the expansion of both water and wastewater 
networks.
    The camp, the Zaatari camp over there, which we have a big 
illustration, in the northern part of Jordan, sits on the best 
aquifer that we have in the northern part of the Kingdom. And 
if we don't do anything about the water issues right there then 
we are going to be faced with a huge pollution problem 
regarding one of our best aquifers in the north of Jordan.
    The Government of Jordan, as well as the international 
agencies and donors, need to be well prepared to provide needed 
and urgent support for a humanitarian crisis of this magnitude. 
This is especially----
    Senator Leahy [presiding]. Madam Ambassador, I'm afraid we 
do not have much time. I know you have further information in 
here about the additional cost and what it's doing to your----
    Ambassador Bouran. Okay.
    Senator Leahy [continuing]. Public debt. And----
    Ambassador Bouran. Yes.
    Senator Leahy [continuing]. Lack of a political solution. I 
want to put your whole statement in the record. I know that 
Senators are going to be coming back and forth due to floor 
votes. So your whole statement will be placed in the record.
    You know that both Senator Graham and I want to help in any 
way----

                           PREPARED STATEMENT

    Ambassador Bouran. I know.
    Senator Leahy [continuing]. We can. I want to make sure 
that Ambassador Chedid gets a chance to speak, too. Of course 
your whole statement will be placed in the record too. Please 
go ahead.
    Ambassador Bouran. Thank you.
    [The statement follows:]
                 Prepared Statement of Hon. Alia Bouran
    Honorable Chairman Senator Patrick Leahy, Honorable Ranking Member 
Senator Lindsey Graham, Honorable Subcommittee Members, thank you for 
the invitation and opportunity to testify before your esteemed 
subcommittee today on behalf of the Government of the Hashemite Kingdom 
of Jordan.
    I would like to extend His Majesty King Abdullah II's appreciation 
to all members of the subcommittee.
    Chairman Leahy, Ranking Member Graham, we thank you for your strong 
leadership on this committee and support to Jordan. The American people 
have played a pivotal and leading role in providing assistance and 
support to Jordan over the years and for that we are truly grateful.
    My testimony this morning will focus on the Jordanian perspective 
vis-a-vis the recent regional and domestic challenges. I hope to 
demonstrate, through my overview, the challenges we face as a country 
during these times and the value of our unique strategic alliance to 
safeguard our joint interests and address these regional instabilities.
    We in Jordan believe the effects of what is happening right now in 
the Middle East will extend far beyond its borders if we do not respond 
and address the issues firsthand. The pressures and dangers are 
mounting by the day. The violence in neighboring Syria continues to 
escalate resulting in the worst humanitarian disaster unmatched in our 
recent history. In addition, the Palestinian-Israeli conflict continues 
to consume the resources needed to build a better future, and feeds 
radicalism and extremism around the world. I would like to take this 
moment to recognize and express our gratitude to President Obama and 
Secretary Kerry for their relentless efforts and commitment to the 
ongoing peace efforts as well as other pressing regional affairs.
    Over the past 2 years, we witnessed a historical regional 
transformation that swept our region. During these turbulent times, 
Jordan managed to navigate calmly and provide sanctuary, security and 
stability to those seeking refuge and shelter. Jordan is now hosting 
over 2 million Palestinian refugees, nearly half a million Iraqis, and 
over 1.3 million Syrians. Jordan stands firm in its commitment to keep 
its borders open. We see this as a humanitarian duty and we have no 
plans to shy away from this commitment.
    Chairman Leahy, Ranking Member Graham, today, we are witnessing the 
worst humanitarian plight in the region's recent history. The crisis in 
neighboring Syria has resulted in grave human cost, displacement, and 
suffering. In turn, this has posed an unprecedented challenge on the 
Kingdom.
    Due to Jordan's geopolitical positioning and close ties with the 
Syrian people, we are able to monitor and keep a close eye on the 
deteriorating situation. I would like to draw your attention to three 
main traits that best characterize the complex and explosive nature of 
this crisis:
  --First, this is a rapidly escalating crisis that has a sectarian 
        component. Its grounds have become a magnet for radicals and 
        extremists from all over the world, some of which seek to 
        export the crises into neighboring countries. What has made 
        matters worse is the presence and use of unconventional 
        weapons. These two components make a dangerous combination, 
        which bears unimaginable consequences that directly impact our 
        security both locally and regionally.
  --Second, the human dimension that has emerged from this multifaceted 
        crisis whether inside Syria or in neighboring countries, has 
        reached an alarming state. Our Armed Forces are witnessing 
        firsthand the human suffering as they receive elderly men, 
        women and children at the border fleeing from the atrocities 
        and human tragedy.
          I would like to take a moment here to applaud all the UN 
        agencies and their donor partners on their relentless and 
        continuous efforts to alleviate the suffering of Syrians. 
        Jordan will continue to work closely with them on this noble 
        cause.
  --Third, the overstretched infrastructure and services as well as the 
        draining of resources are overwhelming factors that face all 
        host communities and further undermine our ability to assume 
        our responsibilities. So far the number of Syrians who sought 
        refuge in Jordan exceeds 600,000, which represents 10 percent 
        of our overall population. One-hundred-thirty thousand of them 
        are living in camps and the rest are spread throughout the 
        Kingdom. This number continues to rise by the day. We reached 
        critical levels this year, calling for targeted responses to 
        deal with the related humanitarian needs, but also the longer-
        term consequences of the crisis.
    Jordan, with the help of the international community, is focusing 
primarily on accommodating the immediate needs of Syrian refugees in 
the Kingdom as they adapt to their surroundings in Jordanian cities and 
villages. However, the refugee dependency on governmental services and 
infrastructure will add more pressures and will eventually increase in 
the medium future.
    To put things in perspective, I would like to share with you, with 
the little time that I have, some key figures that reflect the level of 
impact this crisis has on Jordan.
    After spending hundreds of millions of dollars on reforming the 
education sector during the last decade, Jordan was forced to reinstate 
the double shift system in schools in order to admit more than 78,531 
Syrian students this year alone, while there are still an additional 
70,000 children out of school. Accordingly, the estimated needed 
capital expenditure to build 120 new schools required to accommodate 
this number exceeds US$135 million.
    In the public healthcare sector, Syrians are granted the same 
access to public health services as Jordanians. This adds an extra 
burden on this vital sector, which is subsidized by the government. 
More than 9 percent of our public budget is allocated to healthcare. 
Furthermore the estimated cost to build new hospitals and health 
centers and to equip the present ones is set to exceed US$124 million. 
In addition the estimated cost of added healthcare services for the 
600,000 Syrians is expected to reach US$168 million. This year, we have 
provided vaccinations against polio, measles and other infectious 
diseases to over 83,000 Syrian children.
    In the labor market, there are concerns over the increasing numbers 
of Syrian job seekers as they compete with Jordanians for low-wage 
jobs. Today around 180,000 jobs, usually occupied by Jordanians, have 
been taken by Syrians. This figure is noteworthy since our unemployment 
rate exceeds 13 percent out of a population of only 7 million. 
Subsequently, this has created social tensions in communities that are 
already facing high unemployment, poverty, and difficult economic 
conditions.
    In the energy sector, there is a significant additional demand on 
electricity, with the large number of Syrians now present in the 
northern parts of the Kingdom. What made matters even more challenging 
was the sharp drop in gas supplies from Egypt due to the interruptions 
of the gas pipeline in the past 2 years. This further exasperated 
Jordan's difficult fiscal position, which resulted in an energy bill 
that reached 19 percent of GDP in 2011 and 23 percent in 2012, compared 
to an average of 10 percent over the past decade.
    Water has always been a scarce resource in Jordan. Prior to this 
crisis, Jordan was ranked fourth poorest country in the world in terms 
of water resources. The added strain on the existing infrastructure 
requires both rehabilitation and expansion of both water and wastewater 
networks. Hence, there is an urgent need to finance and implement 
specific projects in the water sector 2013 with a total amount of $160 
million to guarantee a sustainable availability of water and prevent 
pollution by wastewater.
    The Government of Jordan, as well as international agencies and 
donors need to be well prepared to provide needed and urgent support 
for a humanitarian crisis of this magnitude. This is especially true as 
the winter season adds more to the struggles of the refugees. The 
estimated overall additional cost needed to continue hosting 600,000 
Syrian refugees is expected to reach US$1.68 billion, excluding the 
additional costs for the camps.
    This crisis not only strained our resources and undermined the 
quality of services, but also contributed to one of the worst economic 
and financial difficulties we ever witnessed; all of which drove the 
government to sign a Stand-By Arrangement with the International 
Monetary Fund.
    Our public debt reached alarming levels as it increased from US$4.5 
billion in 2012 to US$23.4 billion representing 75.5 percent of GDP. 
Another key economic challenge is the surging budget deficit that has 
reached more than US$2.3 billion by the end of 2013, that's more than 8 
percent of our GDP.
    The root cause of this crisis is political and not humanitarian. 
The lack of a political solution to the crisis thus far has resulted in 
the humanitarian disaster we are witnessing before us today.
    Unless there is a real political solution that restores stability 
and security to the Syrian people, all efforts to address the 
humanitarian dimension will remain partial and temporary. There has to 
be a durable and effective settlement that fulfills the legitimate 
aspirations of the Syrian people and includes all components of the 
Syrian national fabric in order to preserve Syria's territorial 
integrity and unity.
    I would like to conclude my remarks by stressing yet again the 
significance of our strategic alliance and joint efforts in overcoming 
these obstacles and challenges.
    I stand before you today on behalf of my country to reaffirm our 
commitment to this long-standing partnership. An integral aspect of our 
alliance is the economic and military assistance to Jordan embodied in 
our joint Memorandum of Understanding. The M.O.U. helps meet our shared 
goals and is further proof of our joint commitment to work together in 
advancing many important issues including regional security and 
stability. Our two nations have long been bound by common values and 
principles, centered on helping those in need but Jordan cannot bear 
this responsibility alone. A continued and concerted effort by all 
nations is required to effectively combat all these threats and 
challenges.
    Again, thank you for this opportunity and for your attention. I am 
happy to answer any questions.
STATEMENT OF HON. ANTOINE CHEDID, AMBASSADOR, LEBANESE 
            REPUBLIC
    Ambassador Chedid. Thank you, Chairman Leahy, Ranking 
Member Graham and members of the subcommittee and Senator 
Shaheen, of course.
    Thank you for the opportunity you afforded me to come in 
front of you to give you an update of the tragic situation in 
Lebanon caused by the huge number of Syrian refugees who 
entered my country and its impact and repercussion on every 
level of the Lebanese society and State.
    First, I would like to briefly inform you on the good 
relations between the United States and Lebanon. Based on a 
great degree of shared values and on a long history of 
cooperation and friendship, the relationship between the United 
States and Lebanon has been close and warm. The Americans of 
Lebanese descent have contributed immensely in strengthening 
these ties by actively participating in all aspects of the 
American life promoting the mutual interests of our two great 
nations.
    The almost continuous presence in successive Congresses of 
number of U.S. Senators and Congressmen of Lebanese descent on 
both sides of the aisle is a clear example of this interaction. 
As a matter of fact, the American Lebanese caucus in this 
Congress has been instrumental in this regard.
    Lebanon and its brave army who achieved marvelous heroism 
in facing terrorism share your same and civic values based on 
fighting this same terrorism, rejecting fanaticism and 
sectarianism and protecting democracy, human rights, freedom of 
expression and public liberties. I would like to express the 
appreciations of the President and the Government of Lebanon 
for the valuable United States' assistance to the Lebanese 
Armed Forces as well for your economic assistance through the 
United States Agency for International Development (USAID).
    It's indeed an honor to share the stage this morning with 
remarkable and knowledgeable officials like my colleagues, the 
Jordanian Ambassador and Assistant Secretary for Refugees and 
Migration, Anne Richard, and the two representatives of the 
United Nations High Commissioner for Refugees (UNHCR).
    My talk this morning is a very painful cry. A painful cry 
on behalf of Lebanon and the Lebanese people. To be heard, in 
this international capital of Washington, specifically by the 
American Congress and by your esteemed subcommittee, it is 
indeed a cry of pain.
    Day by day, the impact of the Syrian crisis on Lebanon 
increases. The latest figures demonstrate that there are now 
833,500 Syrians and if we look at this map, the map of Lebanon, 
the red dots are where the Syrians are and the white dots are 
mountainous areas where they cannot be. So soon they will cover 
all of Lebanon, unfortunately. The latest figures demonstrate 
that there are now so many Syrians in Lebanon registered or 
awaiting registration with UNHCR, it is worth noting that one 
morning, the UNHCR had 763,000 refugees, only that same 
afternoon of that same day, the number had changed to 769,000 
as it increased by 6,000 during one single day. This massive 
increase does not relate the whole story. If we add the illegal 
refugees and those who are not registered, the number is 1.3 
million which is around 30 percent of the Lebanese population, 
equivalent to having 25 million refugees enter Germany in 1 
year or 93.5 million refugees entering the U.S. in the same 
period. They have increased Lebanon's population by a third.
    The impact on the country so far is deep and threatens to 
unravel the country economically, politically, and socially. 
The World Bank's impact assessment estimates the total economic 
loss to the country to be around $7.5 billion for the period 
extending from 2012 to 2014. Unemployment is likely to reach 20 
percent, as 324,000 Lebanese plunge to unemployment. Exports 
have plummeted and the 20 percent growth rate in 2010 has 
turned into a minus 1 percent decline in 2012. Tourism tells 
the same story with the increase of 20 percent in October 2010, 
also turned into a disastrous 30 percent decline in October 
2012.
    The impact on the budget has been severe. Direct budgetary 
support needed to maintain the same level of government 
services is $2.5 billion. The direct impact on budget revenues 
is a decline of $1.5 billion.
    In addition to government needs and the needs of the local 
community, there is also humanitarian needs related to the 
crisis. This was estimated at $1.7 billion for 2013 and 32 
percent of which has been funded so far. The price of 
shouldering the Syrian crisis is proving too much to bear for 
Lebanon.
    In addition, the Syrian presence is causing severe stress 
on the local communities as competition for resources 
increases. The Syrians are now present in over 1,650 localities 
and their presence is causing increased tension. This has led 
to additional hostility towards the Syrians and has increased 
racist sentiments sometimes towards them.
    We call on the international community to increase its 
assistance to Lebanon, to the local communities, and to do so 
quickly. We call for our friends to open the borders and share 
the human burden with Lebanon. We call on the international 
community to find specifically a political solution to the 
crisis.
    Despite all that, Lebanon has remained faithful to its 
international human commitment not to close its border in the 
face of anyone seeking refuge from violence. Again, I repeat, 
this aggravating burden represents now a real existential 
crisis in view of the security and socio-economic repercussions 
of such sudden overpopulation.
    Many international conferences for donors were held. They 
followed the successful meeting of the international support 
group for Lebanon in New York at the U.N. Headquarters which 
was presided by Secretary General Ban Ki Moon and the President 
of Lebanon, General Michel Sleiman, and was very highly 
attended by the U.N. and the Permanent 5 (P5), the European 
Union, Arab League, World Bank, UNHCR and other U.N. agencies. 
The American Administration was represented at a very high 
level by Secretary of State, the Honorable John Kerry, 
personally.
    Based on the common responsibility of the international 
community as a whole, the Lebanese need the care and support of 
brotherly and friendly countries in order to face the negative 
repercussions of this huge external conflict which is not of 
their own making, but which threaten their security and 
stability.
    As you know, Lebanon is a small country, the size of the 
State of Connecticut, living within a delicate and boiling 
geographical area with limited resources and capabilities and 
sensitive inter-communal balances. As it is not possible to 
impose on nations, and individuals, the impossible and what 
they are not able to do, it is important for me to reiterate 
from this very esteemed podium, the call of Lebanon to increase 
assistance to ease this escalating burden.
    However, in view of the escalation of the fighting and the 
additional deterioration of the situation in Syria itself, an 
additional number of families is unfortunately expected to flee 
and already the Lebanese town of Arsal, in Eastern Lebanon, 
received lately some 20,000 refugees due to the Kalamoun battle 
ongoing in Syria on the Lebanese, Eastern Lebanese/Syrian 
borders, adding more to the suffering of those already present 
and on the hosting communities which would definitely stretch 
the capacities of all concerned to its utmost limits. I should 
definitely stress on the upcoming winter weather factor. It 
looks like Lebanon and Aria are unfortunately expecting a 
blistery winter which already started as a strong snowy storm 
called Alexa is hitting the area today, as a matter of fact, 
make an already tragic situation even worse.
    The Government of Lebanon is committed to support within 
its capacities the displaced Syrian families awaiting their 
return to their homes. All these measures seem pressing and 
urgent, pending the desired political solution for Syria which 
hopefully will be provided by the Geneva II Conference to which 
Lebanon, when invited, will attend, a solution that will likely 
and hopefully ensure for these refugees a dignified and safe 
return to their country.

                           PREPARED STATEMENT

    Let me conclude by emphasizing a fact that by assisting the 
host neighboring countries of Syria to cope with the refugees' 
problem, you will enhance the security and the stability of 
these countries. The spillover of the Syrian situation to these 
countries, Lebanon included, is capable to destabilize the 
regional stability, thus creating a conducive environment for 
terrorism and terrorist organizations.
    [The statement follows:]
               Prepared Statement of Hon. Antoine Chedid
    Thank you Chairman Leahy, Ranking Member Graham and members of the 
subcommittee.
    Thank you for the opportunity you afforded me to come in front of 
you to give you an update on the tragic situation in Lebanon caused by 
the huge number of Syrian refugees who entered my country and its 
impact and repercussion on every level of the Lebanese society and 
state.
    First, I would like to briefly inform you on the good relations 
between the United States and Lebanon. Based on a great degree of 
shared values and on a long history of cooperation and friendship, the 
relationship between the United States and Lebanon has been close and 
warm. The Americans of Lebanese descent have contributed immensely in 
strengthening these ties by actively participating in all aspects of 
the American life promoting the mutual interests of our two great 
nations. The almost continuous presence in successive Congresses of 
number of U.S. Senators and Congressmen of Lebanese descent on both 
sides of the isles is a clear example of this interaction. As a matter 
of fact, the American Lebanese caucus in this Congress has been 
instrumental in this regard.
    Lebanon and its brave army who achieved marvelous heroism in facing 
terrorism share your same and civic values based on fighting this 
terrorism, rejecting fanaticism and sectarianism and protecting 
democracy, human rights, freedom of expression and public liberties. I 
would like to express the appreciation of the President and the 
Government of Lebanon for the valuable United States' assistance to the 
Lebanese Armed Forces as well for your economic assistance through U.S. 
AID.
    It is indeed an honor to share the stage this morning with 
remarkable and knowledgeable officials like my colleague, the Jordanian 
Ambassador, Ms. Alia Bouran and Assistant Secretary of State for 
Population, Refugees and Migration, Anne Richard and the 
representatives of UNHCR who are exerting tireless efforts to assist 
Lebanon in such difficult circumstances, Mr. Andrew Harper and Mr. Ewen 
MacLeod.
    My talk this morning is a very painful cry on behalf of Lebanon and 
the Lebanese people to be heard in this International Capital of 
Washington specifically by the American Congress and by your esteemed 
subcommittee. It is indeed a cry of pain.
    Day by day, the impact of the Syrian crisis on Lebanon increases. 
The latest figures demonstrate that there are now 833,500 Syrians in 
Lebanon registered or awaiting registration with UNHCR. It is worth 
noting that one morning, the UNHCR had 763,000 refugees only, that same 
afternoon of that same day, the number had changed to 769,000 as it 
increased by 6,000 during one single day. This massive increase does 
not relate the whole story, if we add the illegal refugees and those 
who are not registered, the number is 1.3 million which is around 30 
percent of the Lebanese population, equivalent to having 25 million 
refugees enter Germany in 1 year or 93.5 million refugees entering the 
U.S. in the same period. They have increased Lebanon's population by a 
third.
    The impact on the country so far is deep and threatens to unravel 
the country economically, politically, and socially. The World Bank's 
impact assessment estimates the total economic loss to the country to 
be around $7.5 billion dollars for the period extending from 2012 to 
2014, unemployment is likely to reach 20 percent as 324,000 Lebanese 
plunge to unemployment, exports have plummeted and the 20 percent 
growth rate in 2010 has turned into a -1 percent decline in 2012, 
tourism tells the same story with the increase of 20 percent in October 
2010 also turned into a disastrous -30 percent decline in October 2012.
    The impact on the budget has been severe, direct budgetary support 
needed to maintain the same level of government services is $2.5 
billion dollars, the direct impact on budget revenues is a decline of 
$1.5 billion.
    In addition to government needs and the needs of the local 
community, there is also humanitarian needs related to the crisis, this 
was estimated at $1.7 billion for 2013, only 32 percent of which has 
been funded so far. The price of shouldering the Syrian crisis is 
proving too much to bear for Lebanon.
    In addition, the Syrian presence is causing severe stress on the 
local communities as competition for resources increases. The Syrians 
are now present in over 1650 localities (all of Lebanon) and their 
presence is causing increased tension. This has led to additional 
hostility towards the Syrians and has increased racist sentiments 
towards them.
    The response of the international community has so far enabled 
Lebanon to barely survive the impact of the crisis but it still falls 
short of the needs. In over 2 years of planning and talks about support 
to the host communities, nothing of significance has materialized so 
far, not one hospital, not one school. This cannot continue with the 
Lebanese local population under threat, with the economic pillars of 
the economy shaken, and with the political fall outs of the crisis 
continuing to destabilize the country. The price of shouldering the 
Syrian crisis is proving too much to bear.
    We call on the international community to increase its assistance 
to Lebanon, to the local communities and to do so quickly, we call for 
our friends to open their borders and share the human burden with 
Lebanon, we call on the international community to find a political 
solution to the crisis.
    Despite all that, Lebanon has remained faithful to its 
international and human commitment not to close its border in the face 
of anyone seeking refuge from violence. Again I repeat: this 
aggravating burden represents now a real existential crisis, in view of 
the security and socio-economic repercussions of such a sudden 
overpopulation.
    The spillover areas according to the World Bank recent report are:
  --Humanitarian nature related to the influx of refugees.
  --It affects our economy and trade and our public finances.
  --The health, education and social safety, increase in demand in all 
        these areas, especially in education.
  --It increased the already existing poverty.
  --The Labor market which result in further unemployment.
  --Our infrastructure is extremely suffering in water supply, 
        electricity, sanitation, traffic, road accidents, waste 
        management.
  --Furthermore, the Syrian conflict has challenged the already 
        delicate social and inter-communal balance in Lebanon.
    The state's budget is now in need of an exceptional financial 
shoring up process to cover these expenses, aside from the direct 
assistance coming in to the Refugees through the United Nations High 
Commission for Refugees and the specialized civil and international 
organizations. In this regard, I would like to thank the American 
Congress and administration for its valuable assistance. The funding 
the esteemed U.S. Congress provided so far was and still essential as 
it saved lives and helped so many people and we thank you for it. The 
American assistance is the highest single one offered by any country as 
it reached so far $254 million dollars.
    Many international conferences for donors were held. The meetings 
of the host countries' representatives held in Geneva and the broader 
international conference which took place on September 30 under the 
theme ``Solidarity and Burden--sharing with countries hosting Syrian 
Refugees'' under the auspices of UNHCR, are but an introduction to 
widening the scope of participation and intensify the search for 
comprehensive solutions that would tackle this escalating crisis. I 
mention also the meeting of the Donors countries which took place at 
the World Bank on October 12. These important conferences followed the 
successful meeting of the international support group for Lebanon in 
New York at the UN Headquarters which was presided by Secretary General 
Ban Ki Moon and the President of Lebanon, General Michel Sleiman and 
was very highly attended by the UN and the P5, the European Union, Arab 
League, World Bank, UNHCR and other agencies. The American 
administration was represented at a very high level by Secretary of 
State The Honorable John Kerry personally.
    Based on the common responsibility of the International community 
as a whole, the Lebanese need the care and support of brotherly and 
friendly countries, in order to face the negative repercussions of this 
huge external conflict which is not of their own making, but which 
threaten their security and stability and that of the region, and 
prejudice their socio-economic situation.
    Not only do they look up to that assistance out of brotherly and 
friendly solidarity, but also based on the common responsibility of the 
international community as a whole, regarding the problems which pose a 
threat to regional and global security in general.
    As you know, Lebanon is a small country the size of the State of 
Connecticut living within a delicate and boiling geographical area with 
limited resources and capabilities and sensitive balances. As it is not 
possible to impose on nations--and individuals--the ``impossible'' and 
what they are not able to do, it is important for me to reiterate from 
this very esteemed podium, the call of Lebanon to increase the 
assistance to ease this escalating burden mainly axed around the 
following points:
  --To provide sufficient funds, human and financial resources, in 
        order to put frames and regulations for the presence of the 
        incoming Syrian refugees, meet their basic humanitarian and 
        livelihood needs, noting that pledges undertaken at the meeting 
        of the Donor States and Organizations which was thankfully 
        hosted by the State of Kuwait on the 30th of January 2013 were 
        fulfilled only partially.
  --To consolidate frameworks and spaces to lodge Syrian Refugees on 
        Syrian territories, in safe zones outside the reach of the 
        ongoing conflict, knowing that the area of Syria is 18 times 
        that of Lebanon.
  --To agree on holding an international conference on the issue of 
        Syrian Refugees which does not merely call for financial 
        assistance, but rather begins to search for ways to share the 
        burdens and numbers among states, based on common 
        responsibility and in light of historical precedents.
  --To provide support from all the concerned and capable states for 
        the works of the ``International Support Group for Lebanon'', 
        which has placed the issue of the Refugees at the top of its 
        priority list.
  --Currently almost 833,500 Syrian displaced are officially registered 
        and hosted in Lebanon with alarming percentages indicating that 
        almost 65 percent of these displaced and assisted are women and 
        children.
  --However, in view of the escalation of the fighting and the 
        additional deterioration of the situation in Syria, an 
        additional number of families is unfortunately expected to flee 
        and already the Lebanese town of Arsal in Eastern Lebanon 
        received lately some twenty thousand refugees due to the 
        Kalamoun battle on the Eastern Lebanese Syrian borders, adding 
        more to the suffering of those already present and on the 
        hosting communities which would definitely stretch the 
        capacities of all concerned to its utmost limits. I should 
        definitely stress on the upcoming wintery weather factor. It 
        looks like Lebanon and the area are unfortunately expecting a 
        blistery winter which already started as a strong snowy storm 
        called Alexa is hitting the area today to make an already 
        tragic situation even worse.
  --It is important to note that the displaced families are hosted in 
        communities that are structurally disadvantaged, underdeveloped 
        and suffer extreme poverty. The coming of the displaced Syrian 
        families aggravated the misery and the suffering of both Syrian 
        and Lebanese. That is why efforts for assistance should be seen 
        along these lines.
  --International agencies and NGOs have been swift in responding to 
        the immediate needs. Unfortunately, assistance remains unequal 
        and fragmented in absence of an overall framework for action. A 
        remarkable effort is done at the level of the UN agencies 
        specially UNHCR to elicit such a mechanism.
  --Sensitive efforts have been concentrating on assisting the Syrian 
        displaced and touched peripherally on the Lebanese hosting 
        communities' needs that are increasing by the day. This is 
        reflected in the increase tension between the two communities 
        at different levels.
    Ladies and Gentlemen, the Government of Lebanon is committed to 
support within its capacities the displaced Syrian families awaiting 
their return to their homes. That goes along acknowledging the right of 
the Lebanese hosting communities for adequate social services. However, 
these capacities have reached a deadlock and immediate help is needed 
as the escalation of violence and massive influx of displaced is 
expected and that require extensive resources. If these are not made 
available, then the Government of Lebanon would be forced to opt for a 
different approach in dealing with the Syrian displaced.
    All these measures seem pressing and urgent, pending the desired 
political solution for Syria which hopefully will be provided by the 
Geneva 2 Conference to which Lebanon when invited will attend, a 
solution that will likely and hopefully ensure for these refugees a 
dignified and safe return to their country.
    Let me conclude by emphasizing a fact that by assisting the 
neighboring countries of Syria to cope with the refugees problem, you 
will enhance the security and the stability of these countries. The 
spillover of the Syrian situation to these countries, Lebanon included, 
is capable to destabilize the regional stability thus creating a 
conducive environment for terrorism and terrorist organizations.
    About half of the refugees are children and Antonio Guterres, the 
UN High Commissioner for Refugees said: ``If we do not act quickly, a 
generation of innocents will become lasting casualties for an appalling 
war.'' Thank you.

    Senator Leahy. Also, in your statement, you quoted Antonio 
Guterres, the High Commissioner for Refugees.
    Ambassador Chedid. Yes.
    Senator Leahy. I applaud you for doing this because he 
said, ``If we do not act quickly, a generation of innocents 
will become lasting casualties for----''
    Ambassador Chedid. ``An appalling war,'' Mr. Leahy.
    Senator Leahy. I couldn't agree more. I'm going to----
    Ambassador Chedid. Thank you.
    Senator Leahy [continuing]. Recess. We've got 2 minutes to 
get to the floor on this vote. Either Senator Shaheen or 
Senator Graham will be back, or, I will return. Again, I 
apologize. We either continue this hearing now or reschedule it 
for Saturday morning and I didn't want to do that to any of 
you. Thank you. We stand in recess.
    [Recess.]
    Senator Graham [presiding]. Okay. We will reconvene the 
hearing. Sorry for the interruption, but we just have a lot of 
votes today. It's been a difficult day to get around the 
Senate.
    Very quickly, before we go to the next witness, I want to 
thank Senator Leahy and his staff for putting on this hearing. 
I hope members, I know people are busy, that the staffs of each 
member of this subcommittee and the Senate as a whole will 
listen closely to what's being said here today. I think we have 
a humanitarian crisis on our hands of almost biblical 
proportions here. And I don't see any end in sight. Lebanon, 
Jordan, and the whole region are very much at risk and what we 
do in the coming months can affect the outcome, the quality of 
people's life, the difference between living and dying, whether 
or not governments can remain intact. So I can't think of a 
more important time for the Congress to be engaged when it 
comes to Lebanon, Syria, Jordan, and the entire region in terms 
of what we can do to help the U.N. and other coalition 
partners.
    With that, and Mr. Harper, I think we will hear from you 
next.
STATEMENT OF ANDREW HARPER, COUNTRY REPRESENTATIVE FOR 
            JORDAN, UNITED NATIONS HIGH COMMISSIONER 
            FOR REFUGEES
    Mr. Harper. Thank you very much.
    Chairman Leahy, Ranking Member Graham, members of the 
subcommittee, on behalf of the Office of the High Commissioner 
for Refugees, I would like to sincerely thank you for this 
opportunity to be here to discuss the humanitarian situation, 
to discuss the situation of refugees, and discuss, most 
importantly, that the needs of the host countries, in my case, 
particularly Jordan. Because if it wasn't for the host 
countries, keeping their borders open, the amount of work that 
we could do, would be extremely limited.
    So when we talk about refugees it means people who have 
fled the violence, have been actually able to cross the border, 
have been able to seek safety. And it was just 2 days ago when 
I was actually up on the Jordanian border with Syria, very 
close to Iraq, and while you've got photographs here, every 
day, every night we're seeing refugees cross. And sometimes we 
get a bit blase because whether it's 800,000 or 600,000 or a 
million, you start losing the focus. And the focus should be on 
how many women and children and elderly and vulnerable are 
coming across and seeking safety.
    And today, what, we've got some snow outside today, the 
Federal Government has closed its offices, today we have staff 
on the border with the Jordanian Armed Forces, with our teams, 
with our non-governmental organizations (NGOs), working to 
bring refugees across. And, I dare say where the refugees are 
crossing at the moment is desert; it's flooded. When I was up 
on the border on the weekend, we got stuck in the mud. We 
actually required a Jordanian Armed Forces armored personnel 
carrier to bring us out. They use six tanks and APCs to drag 
the trucks bringing the refugees to safety. At night, the Armed 
Forces have their vehicles on top of a hill shining into Syria 
to direct the refugees to come to Jordan.
    This is a country that we need to help because they've got 
600,000 Syrians now; we could have a total of 800,000 by the 
end of the year. It takes us 4 days to move the refugees from 
the border to Zaatari camp. We had children coming across 
soaked. They had their feet stuck in the mud trying to cross 
the border and one of them lost their shoes in the mud; and so, 
we were bringing up blankets again, a lot of the things that 
we've been able to achieve, all of the things that we've been 
able to do has been because of the generosity of the U.S. 
Government, the U.S. people, which we could not be more 
thankful for. But, it's when you provide the blankets, when you 
provide the shoes, when you provide the coats to women and 
children who are crossing the border in the snow and the rain, 
that you really sort of say, ``Okay, this is what the priority 
has to be, because we are saving lives.'' That being said, when 
we do move the refugees into Jordan, we cannot forget the needs 
of the Jordanians who are providing the protection to them.
    And I can go through the costs, I can go through the 
numbers, and I could make three main points so that you can 
take them away, but there's only really one main point that we 
need for Jordan and that is we need to continue the level of 
support that we've been providing as a collective, but we not 
only need to continue it, we need to enhance it and we need to 
ensure that there's a linkage between the emergency 
humanitarian response with the development response. Because 
there's no way that this crisis is going to end tomorrow. We 
need to provide the confidence to the Government of Jordan that 
we have their back. That we're their friends and we support 
what they're doing. Because----
    Senator Graham. How much money are you talking about?
    Mr. Harper. We've got an appeal coming out in 2 weeks' time 
for the humanitarian side which is about $1.2 billion. This 
involves 60 actors. Also, I know the Government of Jordan is 
putting forward for about $1 billion as well. But in the whole 
scheme of things, when you look at the Middle East and you're 
looking at stability, you invest now and you recoup those costs 
in years to come. And that is something which not only 
certainly the High Commissioner has been very much engaged in, 
I, who have seen the Jordanians working from the frontline, to 
the hospitals, to the camps, to the teachers, are a full 
advocate and supporter of that.
    So, again, I don't want to talk too much because my 
testimony is there for the record and the Ambassador has spoken 
quite eloquently, as has Anne Richard from Population, Refugees 
and Migration (PRM). But I would also add that the partnership 
between the Government of Jordan and humanitarian agencies 
couldn't be stronger. And even last week, despite the almost 
overwhelming nature of this crisis, Jordan continues to make 
efforts to facilitate our work. Last week, they increased the 
validity of the refugee registration from 6 months to 12 
months. This means that refugees don't have to come to the 
office every 6 months, they now go every 12 months. This means 
that we don't have to register 600,000 times. This means a lot, 
because refugees need to be registered, access for free 
education and the free healthcare which the Government of 
Jordan is paying for.

                           PREPARED STATEMENT

    So across the board, we need to salute, we need to applaud, 
we need to support Jordan, not only in 2013, 2014, 2015, until 
such time that the situation in Syria can become resolved 
because we need to provide the confidence to Jordan to continue 
what they're doing.
    Thank you.
    [The statement follows:]
                  Prepared Statement of Andrew Harper
                                summary
    Given the deteriorating situation in Syria, the level of 
displacement will continue to grow. Humanitarian support both inside 
Syria as well in neighbouring states must not only be maintained but 
enhanced. The strong leadership undertaken by the United States has 
been critical in ensuring the successful refugee response to-date. The 
refugee response must, however, be linked to longer support for 
Jordanian host communities who have borne the brunt and who we, as 
humanitarians, have relied upon for the protection of Syrian refugees.
                              introduction
    Mr. Chairman, Ranking Member and members of the subcommittee, on 
behalf of the Office of the High Commissioner for Refugees (UNHCR), I 
would like to express our appreciation for the opportunity to appear 
before you today to address the humanitarian situation of Syrian 
refugees in Jordan and the challenges being borne by their respective 
host communities. I would also like to request that my full written 
statement be submitted for the record.
    I would like to sincerely thank the people and the Government of 
the United States for their tremendous support and leadership in 
relation to this refugee response. Without this support the significant 
achievements that have been made in providing life-saving protection 
and assistance to the hundreds of thousands Syrians who have been 
hosted in the Kingdom of Jordan would not have been possible. I thank 
you for this opportunity to testify and to explain further on the 
overall needs in Jordan.
                       syrian refugees in jordan
    Jordan is a keystone state in a turbulent region. The generosity 
that it has shown towards refugees since the crisis began must be 
reinforced through enhanced and sustained international support. It is 
critical that other refugee groups in Jordan, including an estimated 2 
million Palestinians and tens of thousands of Iraqi refugees, are also 
acknowledged and continue to receive critical support.
    Mr. Chairman, this weekend I was on Jordan's remote eastern border 
with Syria, where we witnessed a relentless tide of mainly women and 
children cross the border. Many of these refugees had been displaced 
several times already in Syria. All had been severely impacted by the 
conflict. One family had just had their 12-year-old son shot dead in 
Homs. Another their home destroyed in Aleppo. Many did not know the 
whereabouts of their husbands, fathers or brothers. None of the 
children that I spoke to had been to school in the past 6 months.
    Of the 1,400 refugees that crossed in the space of several hours 
that evening, over 700 were children. We had elderly in wheelchairs 
being pushed across the desert by their grandchildren. There were 
pregnant women, one of whom gave birth later that night in Jordan. Of 
the pre-conflict population of the neighbouring province of Da'ara, 
over 40 percent are now registered with UNHCR in Jordan.
    The conflict in Syria has caused the worst humanitarian crisis in 
almost two decades, with the impact affecting stability throughout the 
entire region. Hardest hit have been Syria's immediate neighbours. The 
impact of the refugee influx upon the societies, economies, and 
communities of the host countries has been immense. Since the beginning 
of the crisis in March 2011, Jordan has maintained an open, albeit 
managed, border policy. The influx further compounds dire economic 
consequences created by the conflict, which include a loss of foreign 
investment, reduced trade flows and cross-border economic and 
commercial exchanges, as well as drastically diminished tourism 
revenues--not to mention very real security concerns, given the scale 
and intensity of the war just across the border.
    As Syrians in urban areas are granted access to public services, 
including health, education, shelter, water and electricity, the 
pressure on scarce resources and subsidised services has dramatically 
increased. The families and communities hosting vulnerable Syrian 
refugees face significant challenges, as does the Jordanian Government. 
Continuing to meet these challenges will depend largely on increased 
and sustained support from the international community.
    The pace of refugee arrivals into Jordan has grown dramatically 
since 2012. By the end of 2011, some 9 months after the crisis started, 
only 5,000 Syrian refugees had been registered with UNHCR. The number 
of Syrians seeking refuge in Jordan is now estimated to be more than 
600,000, with 565,000 registered with UNHCR. Of this, only one-fifth 
are located in camps, such as Zaatari. The remainder are in urban 
areas. This number will continue to increase as the security, social, 
economic and political situation deteriorates further in Syria.
    Jordan has a population of 6 million people. The current Syrian 
refugee population now constitutes an additional 10 percent to this 
population. The projected 800,000 refugees by the end of 2014 would 
increase this to 13 percent. Tragically just over half of the refugee 
population are children with the majority of adults being women.
    The refugee response to this influx has been well coordinated, 
rapid and effective. Some of the main achievements include:
  --Some 565,000 Syrians have been registered by UNHCR, including 
        enhanced biometric registration;
  --Zaatari camp has provided protection and assistance to 360,000 
        newly arriving refugees (Government of Jordan (GoJ), UNHCR). 
        Zaatari's current population is approximately 80,000. 
        Assistance for newly arrives refugees includes tents, blankets, 
        kitchen sets and food parcels;
  --Azraq camp has been built with a capacity of 52,000 in the first 
        phase and a potential of up to 130,000 persons in total;
  --Almost 400,000 refugees receive food vouchers and all refugees in 
        Zaatari receive food assistance (World Food Programme (WFP));
  --Almost 70,000 families are receiving regular cash assistance--
        including 30,000 from UNHCR;
  --Over 106,000 Syrian children are registered in public schools in 
        both host communities and in camps (UNICEF);
  --Nearly 32,000 school-aged children in host communities and in camps 
        benefit from informal education;
  --115 Jordanian public schools supported to increase learning space 
        through double-shifting, refurbishment and prefabricated 
        classrooms; and
  --All Syrian children and over 2 million Jordanians are being 
        vaccinated against polio and measles (WHO, UNICEF).
    Refugees are received and assisted at the border by the Jordanian 
Armed Forces (JAF), supported by the International Organization for 
Migration. On some nights, as many as 4,000 Syrians have crossed the 
border. This required the mobilization of up to 80 buses to transfer 
the refugees to safety. The JAF transfer the refugees to a screening 
center at Rabaa Al-Sarhan, before onward transport to the refugee 
camps. On arrival in the camps, refugees are registered by UNHCR, 
receive medical screening, are assisted with food, NFIs and shelter, 
and are provided access to water and sanitation, education, psycho-
social support and other services.
    Of the over 600,000 Syrian refugees in Jordan, approximately 20 
percent of Syrian refugees reside in refugee camps. The largest refugee 
camp is Zaatari, administered by the government, with the support of 
UNHCR. More than 360,000 Syrians have been registered in Zaatari camp 
since its opening in July 2012, although a large number of refugees 
have subsequently left Zaatari to urban and rural areas in Jordan.
    The absorption capacity in urban areas is rapidly being exhausted 
and some northern cities such as Mafraq and Irbid may have already 
reached capacity. Unlike previous refugee influxes into Jordan, the 
majority of Syrians who have taken refuge in the Kingdom have limited 
education and little in the way of resources. As a result, they have 
tended to settle in low income areas, where services were already 
oversubscribed and work opportunities too few. In some northern towns, 
one room apartments have increased from U.S. dollar (USD) 50 to USD 
150. Some Jordanians have reported that young people have been forced 
to delay marriage, as they are unable to find affordable accommodation. 
With a failing economic situation in the north as trade with Syria has 
ground to a halt, the massive increase in prices in some sectors is 
causing real hardship for refugees and Jordanians alike.
    The early arrival of refugees from the Syria in 2011 primarily 
affected border areas and governorates in the north and north-west of 
the country, which were traditional destinations for Syrian migrant 
workers, notably in the agricultural sector. Pre-existing cross-border 
economic, commercial, and social links (tribal, family) between 
Jordanian and Syrian communities eased the initial reception of 
refugees. The town of Dara (pop. 100,000+), which provided the trigger 
for the uprising, rests on the border with Jordan. This has often 
resulted in shells landing in neighbouring Jordanian towns and 
villages.
    As the number of Syrian refugees grew, local absorption capacities 
and response capabilities of municipalities and humanitarian aid 
providers have come under enormous strain. For the most part, refugees 
are concentrated in areas of the Kingdom where poverty rates among 
Jordanians are among the highest in the country.
    Mr. Chairman, Jordan has limited natural resources but has been an 
example to the world in terms of providing refuge to people fleeing 
conflict in the Middle East. It has no oil. It imports nearly all of 
its energy (96 percent, consuming about 20 percent of gross domestic 
product (GDP)), as well as large proportions of its water and grain. 
The economy depends heavily on expatriate worker remittances, tourism, 
and foreign direct investments and grants.
    Over the past several years, Jordan has confronted multiple 
external shocks. High prices for imported oil and food, repeated 
interruptions of natural gas flows from Egypt, and sluggish foreign 
direct investment flows have combined with the civil war in Syria to 
produce a profoundly negative impact on the economy, including 
increased inflation and a sharp deterioration in its fiscal and 
external balances. Stimulating growth, while simultaneously lowering 
the deficit, has become Jordan's main economic challenge.
    Over the last decade, the share of poor households in Jordan has 
been halved from 32 to 15 percent--a considerable achievement that 
could be affected by the current challenge. The improvement on many 
development indicators, along with the implementation of political 
reforms, is credited as having mitigated domestic public discontent, 
which in other parts of the region has led to violence. Jordan's 
stability and generous protection space cannot be taken for granted, 
and in a turbulent region, it must be prioritised. As we have seen in 
other regional states, once stability is compromised, it is difficult 
to regain.
    The majority of poor households are found in the northern 
governorates hosting refugees. Part of the governorate's efforts to 
protect lower income Jordanian families involves the provision of 
subsidized items such as bread, electricity, water and household gas. 
The provision of these subsidized items to Syrian refugees in the 
country constitutes a significant and unforeseen burden for the 
Jordanian Government. The estimated cost to-date for the government to 
cover these subsidies this year is USD 152.4 million (USD 19.2 million 
for water, USD 23 million for flour, USD 93.6 million for electricity 
and USD 16.6 million for household gas).
    The Government of Jordan has granted access to free primary and 
secondary education to all Syrian refugee children registered with 
UNHCR (estimated at 190,000), despite existing pressures on the 
education system. With 90 percent of Syrian children concentrated in 
four governorates (Mafraq, Irbid, Amman, and Zarqa), the pressure on 
public schools in these locations is extremely high. By the end of 
November 2013, 97,000 Syrian children were enrolled in Jordanian public 
schools (excluding camps), with 80 schools currently double-shifting in 
order to accommodate them.
    Mr. Chairman, Jordan is one of the countries with the lowest infant 
and maternal mortality rates in the region, it has been polio free 
since 1995, was due to be certified free from indigenous measles 
transmission, and was on course to eliminate tuberculosis. All of these 
gains are now at risk. Following a declared polio outbreak in Syria, 
with 17 reported cases as of mid-November, there is a need to ensure 
immunization of children under 5 in Jordan, with coordinated campaigns 
targeting not only Syrian refugees but also Jordanians and other 
members of the host community. With at least a 10 percent increase in 
the demand for healthcare, the sector is faced with significant 
shortages of medications--especially those for chronic diseases--and 
beds, overworked staff and short consultation times. In the northern 
city of Mafraq, out of 16 infant incubators, 12 were occupied by Syrian 
refugee babies. It is worth nothing that as a result of the efforts of 
the Ministry of Health (MoH), UN and NGO health organizations, 
mortality and acute malnutrition rates are not currently elevated among 
Syrian refugees.
    The Ministry of Labour has highlighted concerns over the increased 
number of job seekers in many of Jordan's northern cities. The arrival 
of Syrian refugees has resulted in a major increase in the labour 
force, in addition to a substantial number of migrant workers already 
in the country. As many as 160,000 Syrian workers may be working in 
Jordan, primarily in the construction, agriculture and service sectors. 
For those refugees able to find regular casual work, these 
opportunities tend to be illegal, scarce, exploitive, and insufficient 
to support their livelihoods. Since Syrians are unable to secure jobs 
in the public service or in the formal private sector, the impact is 
felt most acutely in the informal labour market. The immediate 
consequence of a large increase in additional, unskilled labour have 
been declining wages and increasing levels of unemployment (estimated 
at 15 percent pre-conflict), especially among the low skilled and 
young.
    Jordan is a desert country and water is its most precious resource. 
Providing water and wastewater services for an additional 600,000 
people poses severe challenges, particularly since the existing systems 
and infrastructure were in many places antiquated (often over 40 years 
old) and already stretched. The aquifers in the area of the camps are 
at risk if steps are not taken to avoid pollution. The water 
infrastructure and aquifers are not able to withstand the significant 
pressures resulting from the additional population. The aquifers once 
exhausted or polluted are gone forever. The increased population is 
overstretching a struggling municipal service delivery. In solid waste 
management alone, the influx of refugees means an increase of 340 tons 
of waste to be disposed of daily,
    A significant increase in electricity generation capacity is 
required to cover the additional demand from the Syrian refugee 
population. It is estimated that USD 110 million is required to 
construct a gas turbine with the adequate megawatt capacity in the 
north. More generally, the capital investment to meet additional demand 
is estimated at USD 338 million.
    Mr. Chairman, despite the enormous social, economic and resource 
costs that Jordan has incurred in being an exemplary host to the Syrian 
refugees, it continues to work hand in hand with UNHCR and the 
international community in order to enhance the protection and 
assistance to Syrian refugees. Last week a decision in principle was 
made to extend the validity of the refugee registration from 6 to 12 
months. In addition, UNHCR will initiate a joint registration with the 
Ministry of Interior, again reducing the pressure on refugees, while at 
the same time introducing biometrics to the registration system. This 
is just one example of the very strong partnership we have with the 
Jordanian Government.
    The dynamics of the influx of Syrian refugees into Jordan remain 
highly unpredictable, but the present signs indicate a deteriorating 
situation. Jordan's continuing ability to provide a minimum level of 
services to refugees and local communities without jeopardizing its 
broader economic and development objectives depends on continued 
international solidarity.
    Assistance to Jordan has so far been mobilised primarily within the 
framework of successive UNHCR-led Regional Response Plans. They have 
had the full support of the government and respective Ministries. Over 
60 different government partners, NGOs and UN agencies have contributed 
to the next edition of the plan which will be released on 16 December. 
The budget is calculated on the projected needs of an expected 800,000 
refugees who will be protected in Jordan by the end of 2014, and 
includes assistance that will reach over 2 million Jordanians affected 
by the presence of refugees.
                               conclusion
    In closing, Mr. Chairman and members of the subcommittee, I would 
like to thank you for your leadership in highlighting and addressing 
the critical protection needs of Syrian refugees and others of concern 
in the region. We look forward to working with you to ensure that 
enhanced protection and assistance are delivered, and durable solutions 
are identified, through robust support and cooperation from the United 
States and other members of the international community. I would be 
happy to answer any questions you might have.
STATEMENT OF EWEN MACLEOD, SENIOR POLICY ADVISOR, 
            SYRIAN REFUGEE RESPONSE, UNITED NATIONS 
            HIGH COMMISSIONER FOR REFUGEES
    Mr. MacLeod. Ranking Member Graham, Senators, the previous 
speakers have detailed very eloquently many aspects of the 
Syrian crisis. With your indulgence, I'd like simply to 
concentrate on four points: What this crisis has meant for the 
United Nations High Commissioner for Refugees (UNHCR) as a 
global organization; the human consequences, after all, we're 
talking about refugees; and the critical operational challenges 
that we face; and some of the future implications.
    When High Commissioner Guterres took office, he pledged 
that our organization would have the ability to respond to a 
crisis of half a million. We are currently dealing with 6.5 
million inside Syria, 2.3 million outside Syria, and possibly, 
by the end of next year, another million to come. I think we've 
proved our ability to respond.
    It has unfolded, the Syrian crisis, with this speed, and on 
a scale, and with a complexity that our organization has rarely 
had to address. Just one statistic from Lebanon, I think, is 
suffice to evidence that: The population estimated in 2011 was 
4.3 million. Today, with the addition of the refugees, that 
stands at 5.3 million. That 5.3 million figure is equivalent to 
what the population was projected to be in the year 2050. I 
think the ability of a country to absorb that many people in 
such a short time speaks eloquently to the humanitarian 
solidarity and the enormous generosity of the people of Lebanon 
in meeting that crisis.
    For us, the operational challenge, what does it mean? We 
have to find the logistical means to respond to 1,600 
settlements scattered across the country. In many of those 
settlements, the population of Syrians are already 30 percent 
or more of the local host community. These are places where the 
poorest Lebanese live; where there is enormous competition for 
resources, for jobs, for water, for electricity. This makes the 
logistical challenge extreme. Access to shelter, to medical 
assistance, to education, to job opportunities, these are the 
most challenging opportunities not just for refugees but also 
for the local Lebanese.
    For refugees our work means that they are documented and 
registered. It means properly registering newborn children so 
they have a legal identity. It means ensuring the children are 
immunized against early childhood diseases like polio and 
measles. It means having access to school. For vulnerable 
families to have the means to purchase essential food and 
items. And for shelter, even it means just the rudimentary 
plastic and wood covering over their heads against winter. All 
across Lebanon we've witnessed the exceptional resilience, 
courage, and determination of refugees in local populations in 
meeting that challenge.
    By early next year, our organization will expect to have as 
many people on the ground in our offices across the country, 
almost as many as we have in our headquarters in Geneva. Being 
physically close to the people we serve is an article of faith 
for us. Understanding their needs and those of the local 
population is critical to the efficient delivery of our work. 
This combination of the speed, the scale, and complexity of the 
crisis has forced us to find new ways to gain efficiency, to 
improve our effectiveness, and to reduce transaction costs to 
the lowest we can. Our cash grant program, for example, has 
overheads of 1 percent. That's quite exceptional in the 
humanitarian world.
    This whole Syrian situation has forced us into a whole-of-
organization approach. In just 2 years of our reparation in 
Lebanon, we've gone from an annual program of only $9 million 
to over $253 million.
    UNHCR and Syria's refugees have had no more steadfast 
partner than the Government and the people of the United 
States. Our regional response appeal, one of the largest in our 
history, has so far generated over $1.8 billion. The United 
States has contributed $349 billion to that appeal. Just one 
third of that program has come to our operations in Lebanon. 
Sadly, their situation in Syria continues to deteriorate. We're 
not in the crystal-ball-gazing business but we have to be 
prepared. And our estimate is that by this time or the end of 
next year, we'll have approximately another million and a half 
refugees crossing the border.
    In Geneva next week, we launch our 6th Regional Response 
Plan and our planning figure for that is over 3 million people. 
Your support has enabled us to carry out our mission on behalf 
of refugees, not only in Lebanon, but around the world where 
dozens of countries our work continues away from the headlines.

                           PREPARED STATEMENT

    Our income is from private donations and that is increasing 
but our core budget still depends largely on voluntary 
contributions from Government. We, therefore, remain strongly 
committed to letting our results speak as our primary 
fundraising instrument.
    UNHCR thanks you and the American people for your 
leadership and your confidence in our work and your generous 
support for refugees.
    Thank you.
    [The statement follows:]
                   Prepared Statement of Ewen MacLeod
                              introduction
    Mr. Chairman and members of the subcommittee, on behalf of the 
Office of the High Commissioner for Refugees (UNHCR), I would like to 
express our appreciation for the opportunity to appear before you today 
to address the situation of Syrian refugees in Lebanon and the 
challenges being borne by their host communities. I would also like to 
request that my full written statement be submitted for the record.
    I would like to sincerely thank the people and the Government of 
the United States for their tremendous support and leadership in 
relation to this refugee response. Without this support, the 
significant achievements that have been made in providing life-saving 
protection and assistance to the hundreds of thousands Syrians that 
have been hosted in Lebanon would not have been possible. I thank you 
for this opportunity to testify and to explain further on the overall 
needs in Lebanon.
                                overview
    The humanitarian situation in the Syrian Arab Republic (Syria) 
remains of very grave concern with domestic, regional, and growing 
international consequences. As the conflict enters its fourth year, 
insecurity, generalized violence, and specific persecution continue to 
force the people of Syria to seek safety and protection.
    During 2013, the numbers of Syrians displaced within their homeland 
and seeking refuge in the five neighboring countries increased 
dramatically. With no immediate prospect for peace in sight, the 
combination of the conflict, deteriorating economic opportunities, and 
shrinking social services are likely to generate further levels of 
displacement within Syria and the region.
    Few refugee crises of recent decades have occurred at the same 
speed as Syria. None have been on the same scale and complexity. As of 
the beginning of December 2013, a total of nearly 2.2 million refugees 
had been registered in the Arab Republic of Egypt (Egypt), the Republic 
of Iraq (Iraq), the Hashemite Kingdom of Jordan (Jordan), the Lebanese 
Republic (Lebanon), and the Republic of Turkey (Turkey).\1\ This figure 
does not include Palestinian and other refugees displaced from Syria, 
nor the hundreds of thousands who may not have registered or who were 
already outside Syria when the conflict began--a total that could 
exceed 3 million people. In addition, over 31,000 Syrians have sought 
asylum in more than 90 countries outside the region.
---------------------------------------------------------------------------
    \1\ As of 2 December 201, registered refugees in the region consist 
of Lebanon (832,005, Jordan (560,058), Turkey (527,307), Iraq 
(208,054), and Egypt (128,158)--UNHCR data.
---------------------------------------------------------------------------
    In 2013 alone, some 1.7 million refugees have been registered, an 
increase of over 340 percent compared to the previous year. Statistics 
alone do not reveal the full extent of the Syrian conflict. The spill-
over effects continue to escalate and deepen across the region, 
generating far-reaching political, economic, and social consequence. 
Overall approximately 80 percent of the refugees across the region--the 
numbers vary by country--are not living in organised camps but in 
cities, towns, and villages, many in informal settlements. The enormous 
generosity of the governments and the peoples of the neighboring 
countries have come at a considerable cost. Government resources have 
been depleted and the coping capacities of local authorities and 
populations have been stretched to the limit. Yet notwithstanding the 
exceptional level of financial support from the donor community, the 
situation of many refugees remains precarious.
    The deteriorating conditions inside Syria are reflected in current 
arrival trends across the region. UNHCR data indicates that since May 
2013, a net average of 127,000 people are registered each month. Based 
on an analysis of population movements within and from Syria, and the 
monthly registration average, there could be over 4 million refugees in 
the region by the end of 2014. This would make Syrians the largest 
refugee population in the world.
    The most dramatic repercussions from the conflict including the 
refugee movements within the region have been on Lebanon. The Economic 
and Social Impact Assessment of the Conflict in Syria on Lebanon 
carried out by the World Bank and the United Nations completed in 
September 2013 outlines the macro-economic and human development 
consequences in detail.\2\ A few numbers from the report suffice to 
capture the enormous consequences of the conflict's impact. The 
cumulative losses in economic activity could reach an estimated US$ 7.5 
billion over the period 2012-2014; the government has incurred an 
additional US$ 1.1 billion in expenditure to meet the increase in 
demand for public services; the costs of stabilization to reinstate 
services to their pre-conflict level is estimated at US$ 2.5 billion.
---------------------------------------------------------------------------
    \2\ Economic and Social Impact Assessment of the Syrian Conflict in 
Lebanon led by the World Bank and the United Nations, Report No. 81098, 
Washington D.C., September 2013.
---------------------------------------------------------------------------
    In view of the magnitude of the crisis and its macro-economic and 
development impact, the Government of Lebanon has recently endorsed a 
national Stabilization Plan as the overall framework for guiding the 
response to the country's needs. It consists of a four track Road Map 
that envisages immediate actions, medium to long term programs, 
structural support, and cooperation with the private sector. Track One 
of the Road Map sees both humanitarian and development interventions 
operating side-by-side to address high priority, immediate needs.
                       syrian refugees in lebanon
    Refugees from the conflict in Syria began arriving in Lebanon after 
March 2011, initially in modest numbers. By the end of 2011 only 5,000 
Syrian refugees had been registered by UNHCR in Lebanon. In June 2012, 
a total of 25,000 Syrian refugees were registered. One year later, this 
figure had grown to over 500,000. Since the beginning of 2013 monthly 
registration, totals have risen sharply to average over 60,000 a month. 
Today, over 830,000 Syrians have been registered or are awaiting 
registration.
    Current projections foresee the number of registered Syrian 
refugees in Lebanon close to 900,000 persons by the end of 2013. This 
would then constitute approximately 23 percent of the Lebanese 
population. Based on arrival trends in 2013, and a projection of the 
circumstances inside Syria, refugee arrivals could increase by an 
additional million persons in 2014. If current fighting along Syria's 
border continues the figure could be even higher.
    The projection of arrival trends for 2014 takes into account a 
number of important variables at work within the region and inside 
Syria itself. These include policy decisions by individual governments 
of the neighboring countries on border management and the measures they 
adopt for the maintenance and welfare of the refugee populations on 
their territory.
    In Syria, the critical driver of internal displacement and forced 
migration will be the immediate violence and threats to life posed by 
the conflict. Decisions to leave the country will also be determined by 
the proximity of violence, economic coping strategies, perceptions of 
safety abroad, and connections with family members outside Syria.
    The plight of Syrian refugees in the country is closely mirrored by 
the situation of other affected populations. There are currently 54,000 
Palestinian refugees from Syria (PRS) in Lebanon and a further 20,000 
Lebanese citizens who have returned from Syria.\3\ The Government of 
Lebanon estimates that there were upwards of 230,000 Syrians resident 
prior to the conflict.
---------------------------------------------------------------------------
    \3\ UNRWA data.
---------------------------------------------------------------------------
    The majority (c. 80 percent) of Syrian refugees arriving in Lebanon 
have originated from the central and western governorates of Homs, 
Aleppo, Hama, Idleb, and rural Damascus. The remaining 20 percent have 
come from Damascus itself, from Dara in the south, and from the north 
eastern governorates of Hassakah, Arraqa, and Deir-Az-Zour. Palestinian 
refugees from Syria have come primarily from Damascus and surrounding 
rural areas.\4\
---------------------------------------------------------------------------
    \4\ Data from UNHCR, UNRWA.
---------------------------------------------------------------------------
    The Government of Lebanon has generously maintained an open border 
policy since the beginning of the crisis and has permitted refugees to 
settle freely in different parts of the country. In addition, it has 
waived certain regulatory requirements and payments normally required 
of Syrian migrants.\5\ Refugees from Syria register in one of four 
centres established by UNHCR in Mount Lebanon, Zahle, Tripoli, and 
Tyre. A range of individual information and biodata is collected 
through interviews.
---------------------------------------------------------------------------
    \5\ Palestinian refugees from Syria are permitted to enter on more 
restricted terms if they can establish they have existing family 
members in Lebanon.
---------------------------------------------------------------------------
    Registration is a critical protection tool. It entitles refugees to 
receive some individual basic assistance from aid agencies and provides 
them with documentation. In addition, project support is provided for 
food security, livelihoods, water and sanitation, and access to health 
and education. Palestinian refugees from Syria are recorded by UNRWA 
and in general have been accommodated and supported in camps through 
existing social service provision. Their arrival numbers are lower due 
to the government's policy of allowing access to only Palestinian 
refugees who can demonstrate family links to Lebanon.
    A particular feature of the Syrian refugee population is its 
dispersal across 1,500 locations throughout Lebanon. The majority (65 
percent) have settled in the North and North East (Bekaa) governorates 
but with growing numbers in Mount Lebanon, the South, and Beirut. This 
pattern is attributable principally to proximity to the Syrian border 
and to traditional cross border ties and relations.
    To complement the quantitative data generated by the registration 
process, more analytical studies and surveys have been commissioned to 
assess vulnerability and to determine protection and material needs of 
the refugee population. A series of technical studies of important 
sectors (housing, education, health) have also been carried out. 
Indications of economic and social fragility among the refugee 
population are reflected in the depletion of assets, the range of 
extreme coping strategies, high levels of out of school children, poor 
and overcrowded living conditions, and limited employment 
opportunities.
            humanitarian consequences and impact in lebanon
    While the numbers alone are staggering, they provide only a limited 
insight into the suffering, misery, and distress of the civilian 
population. Many refugees who have fled into Lebanon suffered multiple 
displacements within Syria prior to seeking safety outside their 
country. Refugees have lost family members and everything they once 
owned--homes, businesses, and livelihoods. Many bear the physical and 
emotional scars of being caught up in fighting and seeing family and 
friends killed or injured. Three quarters of them are women and 
children. Nearly one in five refugees is under the age of 4. The 
children pay the hardest price of all, with millions of young lives 
shattered by this conflict. A large component of the future generation 
of an entire country faces hardship in exile.
    The effects of the Syrian conflict and the resultant refugee crisis 
have also had particularly far reaching consequences for Lebanon and 
its people. The rapid increase in the overall population of a small 
country with a surface area of only 10,482 square kilometres has 
generated enormous challenges for the Government of Lebanon, its 
people, and the international assistance community.
    The initial policy and operational responses of the Government of 
Lebanon and the international community focus primarily on the 
immediate humanitarian needs of the refugees from Syria. These were 
assessed and appeals for assistance have been launched under successive 
Regional Response Plans (RRP). Under the guidance of the Prime 
Minister's Office, the Ministry of Social Affairs (MoSA) has been 
tasked with coordinating the assistance effort on the Government side, 
working in close collaboration with other Ministries and UNHCR.
    As the impact of the Syrian conflict and the refugee crisis has 
spread and deepened across the country, its consequences for Lebanese 
communities have also grown. Increased pressures on the economy, 
service delivery, and the environment are most directly felt at local 
level. The large refugee presence, especially in many of the country's 
poorest regions, has heightened competition for scarce resources, 
employment, and access to limited social services.
    The early arrival of refugees from Syria primarily affected border 
areas in the north and north east of the country, traditional 
destinations for Syrian migrant workers, notably in the agricultural 
sector. Pre-existing cross border economic, commercial, and social ties 
between Lebanese and Syrian communities eased their initial reception. 
Many refugees were hosted by Lebanese families who shared their homes 
and resources.
    The Government of Lebanon has been reluctant to establish refugee 
camps for Syrian refugees. This, in part, reflects the remarkable 
absorptive capacity of Lebanese society, and in part, the permanence of 
the 12 official Palestinian refugee camps in Lebanon which were 
established more than half a century ago and are home to 475,000 
people.\6\
---------------------------------------------------------------------------
    \6\ Data based on officially registered figures as of March 2013--
UNRWA data.
---------------------------------------------------------------------------
    However, as the number of Syrian refugees has grown, local 
absorption capacities and response capabilities of communities, of 
municipalities and of humanitarian aid providers have come under 
increasing strain. Accommodation within individual family households 
has proved largely inadequate and unsustainable. The majority of 
refugees have found temporary solutions by renting rooms and 
apartments.
    Unfortunately, these options are simply not affordable for many 
families, therefore a growing number have established themselves in 
informal settlements. Many have been obliged to share the same small 
apartments or space in unused buildings, garages, shops, and even 
animal sheds. Several thousand are staying in hastily erected tents and 
temporary shelters. A disquieting proportion lives in overcrowded and 
insecure conditions where sanitation is lacking and ther is little 
protection from rain, wind and snow in the winter season.
    As the conflict drags on, refugee savings are diminishing, their 
debts are increasing, and refugees face a constant struggle to cover 
the gap between their income and essential expenditure. They face 
difficulties securing regular employment and support from the aid 
community barely covers essential needs.
    UNHCR data indicates that Syrian refugees are now present in more 
than 1,500 municipalities. In over 133 locations, Syrian refugees 
already account for more than 30 percent of the overall population. 
These are predominantly (75 percent) found in the North and North East 
(Bekaa). There is a strong coincidence of the large refugee presence 
with the documented levels of poverty among Lebanese communities. Thus 
the shift in the demographic balance has also been accompanied by a 
range of economic and social effects. The pressures on labour markets, 
services, and resources, and the resulting social tensions, have been 
captured in a series of assessments and studies undertaken by different 
aid organizations in 2012-2013.
    The economic impact of the refugee crisis has been reflected in 
increased food prices, reduced employment opportunities, and higher 
rental costs. Social and environmental effects include reduced access 
to healthcare, overcrowded schools, deteriorating water quality, and 
inadequate waste management. The most adversely affected among the 
poorer Lebanese have been unskilled labourers and those in informal or 
irregular work.
    The socio-economic consequences of the refugee crisis have also led 
to fragile inter-communal relations and discontent. Even if refugees 
are largely living in very basic and insecure circumstances themselves, 
Lebanese communities have widely attributed the decline in their own 
living standards to the refugee presence. Notwithstanding the efforts 
of the Lebanese authorities to highlight their concerns on this point, 
the fact that Syrian refugees have hitherto been the main beneficiaries 
of international and government assistance has also been a source of 
tension.
    The full extent of the Syrian conflict on Lebanon and on the poorer 
Lebanese population has prompted an important shift in both policy and 
operational response on the part of the humanitarian assistance effort. 
Recognizing the need for a more balanced and comprehensive approach, 
greater attention and resources have been devoted to addressing both 
the country's overall requirements and the immediate needs of local 
Lebanese communities.
                            unhcr in lebanon
    UNHCR has been present in Lebanon since 1963. The organization's 
role in the country has varied from supporting refugees, primarily 
Iraqi and Sudanese, to assisting internally displaced Lebanese. The 
political crisis in Syria turned violent in March 2011. It started to 
produce significant displacement of Syrians into Lebanon in early 2012. 
In response, UNHCR significantly scaled up its operation in the country 
to register and assist Syrian refugees and coordinate the inter-agency 
response to the needs of refugees and other affected populations.
    UNHCR currently has five offices inside Lebanon in Beirut, Mount 
Lebanon, Zahle, Tyre, Tripoli, and Qubayat. There are over 430 UNHCR 
staff working throughout the country with projections for the workforce 
to grow to over 700 staff by early 2014 to meet existing needs. This 
will make UNHCR's operation in Lebanon our largest in the world.
    In partnership with the Office of the Prime Minister and the 
Ministry of Social Affairs (MoSA), UNHCR leads and coordinates an 
inter-agency response to the Syrian refugee situation in Lebanon, 
working closely with the central and local government authorities and 
our UN and NGO partners. The two largest partner programmes are that of 
the World Food Programme, which supplies food rations and vouchers to 
the refugees, and UNICEF, who provide child protection services, 
education, and water and sanitation.
    UNHCR's program in Lebanon is one component of the wider Regional 
Response Plan (RRP) established to meet the challenges of the refugee 
crisis. The United States Government has contributed US$112 million to 
this effort inside Lebanon. Its key objectives are protection, life-
saving assistance, community support, emergency preparedness, and 
information management. In 2013, the Lebanese component of the Regional 
Response Plan has generated impressive support. The proposed budget has 
been increased to over US$ 253 million, representing almost 70 percent 
of the proposed Operations Plan.
    The programme is overseen and managed from UNHCR's Country Office 
in Beirut and its five offices around the country. It is organized as 
an inter-agency response around the following key sectors--protection, 
education, health, shelter, water and sanitation, food and Non-Food 
Items. A task force mandated to organize the international response to 
host communities is co-chaired by the Ministry of Social Affairs, UNHCR 
and the United Nations Development Programme (UNDP).
    Despite the pressures felt by the government and the local 
populations, the Lebanese authorities have consistently kept their 
borders open, thereby permitting access to safe territory to refugees. 
This has permitted UNHCR to steadily increase its registration 
capacities and reduce the waiting time. This, in turn, has provided 
critical data and information allowing refugees, particularly the most 
vulnerable, to be better served by humanitarian agencies. Such 
information will grow in importance as the programme increasingly 
focuses on those with the most critical needs.
    Despite the highly dispersed character of the population's 
settlement pattern across the country, and the sharp logistical 
challenges this represents for the humanitarian response, some 195,000 
refugees have so far been provided with shelter assistance including 
through weatherproofing, the provision of financial assistance to cover 
rent, and the rehabilitation of collective shelters. These efforts are 
complemented by the distribution of stoves, fuel and blankets which are 
underway to ensure that 450,000 people find warmth this coming winter.
    Significant work has been undertaken with the Ministry of Public 
Health through its public health facilities to provide refugees with 
access to primary and secondary healthcare. So far, despite the high 
cost of medical care in a highly privatized healthcare system, some 
440,000 individuals have been assisted with primary healthcare. A 
further 35,000 people have been assisted with emergency and life-saving 
secondary healthcare.
    UNHCR and partners have also worked with the Ministry of Public 
Health to contain outbreaks and reinforce routine immunisation 
programmes. To date, some 730,000 children have been vaccinated for 
measles, a further 230,000 children received oral polio vaccines, and 
the country's routine immunization programme was strengthened with cold 
chain equipment, vaccines and staff training.
    Education remains one of the key sectors for the inter-agency 
response. It has far reaching consequences for the future of Syria. 
With 280,000 school-age Syrian refugee children currently registered 
with UNHCR, there are now nearly as many Syrian refugee children as 
Lebanese children attending public school. Agencies are striving to 
increase support to public schools to enable 100,000 refugee children 
to enroll during this academic year, a threefold increase on refugee 
enrollment in 2012-2013. A significant number of refugee children will 
be unable to access formal education. In consequence, agencies are 
increasingly focusing their efforts on non-formal education.
    As the conflict in Syria drags on and refugees' resources are 
depleted, an increasing number of people are resorting to negative 
coping strategies, including prostitution and child marriage. Children 
are facing increased risks of abuse and exploitation as they are 
compelled to work, often in precarious conditions, to support their 
families. UNHCR and partners are seeing an increasing number of 
refugees with needs for counselling and other forms of specialised 
support.
    Agencies are increasing outreach efforts to ensure that refugees 
most in need receive assistance. A network of over 100 refugee outreach 
volunteers has been created and trained to identify and report on 
individuals' vulnerabilities and protection risks. The network 
continues to be expanded and is anticipated to reach 400 by the end of 
2014. Planning is also afoot to set up a network of 600 specialized 
refugee volunteers to identify and respond to needs in various sectors 
such as education, health and psycho-social needs.
                               conclusion
    Regrettably, the conflict in Syria shows no immediate signs of 
abating. The damage to the country's economy and infrastructure may 
already take decades to rebuild to pre-conflict levels. The death, 
injury, deprivation and loss will mark the civilian population for a 
generation or more. Re-establishing trust, social cohesion, and 
confidence in a now deeply fractured society will require perhaps even 
greater efforts than the rehabilitation of physical infrastructure. For 
refugees to return voluntarily in safety and dignity, peace and 
reconciliation will be the essential benchmarks.
    In the history of refugee asylum and protection, few countries and 
few populations have demonstrated such profound generosity and paid 
such high costs for their humanitarian solidarity as Lebanon. As the 
conflict enters its fourth year, growing indications of another complex 
and protracted refugee situation are emerging.
    UNHCR's High Commissioner has consistently called for the 
international community to match Lebanon's example by contributing even 
stronger support. The need for immediate humanitarian aid for a poor 
and increasingly impoverished refugee population will remain. 
Notwithstanding the robust performance of the Regional Response Plan to 
the refugee situation, humanitarian assistance alone cannot adequately 
address either the growing needs of the refugees or the impact of the 
conflict on Lebanon and its people. The early and welcome engagement of 
development agencies in highlighting the varied effects on Lebanon's 
economy and its social cohesion is to be welcomed. It is also an 
unprecedented sign of the gravity of the crisis that should not be 
ignored.

    Senator Graham. Thank you all. Do you want to go, Jeanne? 
Do you want to go first?
    Senator Shaheen. You go.
    Senator Graham. Okay. Well, thank you for very compelling 
testimony.
    Ms. Richard, is there a document being prepared by the 
State Department that would basically submit to Congress what 
we can do for the region? You know, what are the ripple effects 
of the Syrian conflict in terms or refugees? How much money you 
need, not just in Lebanon and Jordan, but for the whole region? 
Egypt, Iraq. If you could do that, I think it would be very 
helpful to make a request of the subcommittee. What do you need 
to handle the Syrian crisis country by country? What would you 
recommend to the Congress in terms of contributions to 
international organizations outside of direct assistance to the 
State Department? Sort of a business plan and, if you could, 
make it multiple years.
    Is that a fair request?
    Ms. Richard. Well, I think that the Office of Management 
and Budget (OMB) would have to agree for us to be able to 
provide that to you officially.
    Senator Graham. Well, I'll write them, but do you think 
that it would be good, certainly be good for the Congress to 
understand----
    Ms. Richard. Absolutely.
    Senator Graham [continuing]. The totality of the impact 
here, with some kind of assessment about how Syria affects the 
stability of the governments. You mentioned--is it MacLeod? 
Okay. Is that the way we say your name?
    Mr. MacLeod. Absolutely correct.
    Senator Graham. Okay, thank you.
    You talked about where we're going to be in terms of 
numbers just in Lebanon, Mr. Ambassador. I mean, to have your 
population increase that much; you're expecting 2050 to get to 
that number. The infrastructure between now and 2050 hopefully 
would be built, that it's just amazing what the countries are 
having to absorb.
    So I'll be glad to, with Senator Leahy, to try to get OMB 
or any other agency to give you the authority to do that 
because we need to understand what's at stake here. You know, 
money invested now can make the world a better place later. I 
really believe now is the time to invest while it still matters 
and you can let people know we care and that it's in our 
national security interest.
    So I'll be glad to, with Senator Leahy, if he's interested, 
to get you the permission to do that.
    Ms. Richard, from your point-of-view, is it still the 
policy of the United States that Assad must go? Is that your 
understanding? If that's not in your lane, that's okay. You 
don't have to answer it.
    Ms. Richard. You know, it is not in my lane----
    Senator Graham. Okay. That's fair.
    Ms. Richard [continuing]. And so I probably shouldn't 
answer it.
    But I do want to say that we are very involved in trying to 
use these next series of meetings leading up to Geneva II 
conversations to try to make headway on the humanitarian peace. 
Because, I know from talking to Ambassador Robert Ford, that to 
the opposition, they have a few things that they really insist 
upon in order to participate in peace agreements. They have 
said in the past that they will not accept Assad as the leader 
of Syria. So that's one of their conditions.
    And the other one is that they would like to see some 
change on the ground so that aid is actually getting in. And 
that's why this is such a key time right now because this is 
the test of whether aid can get in.
    Senator Graham. Madam Ambassador, from a Jordanian point of 
view, what is the status of the memorandum of understanding 
between Jordan and the United States and what are you seeking 
from our Government?
    Ambassador Bouran. Thank you. Thank you, Mr. Ranking 
Member.
    Actually, the memorandum of understanding is crucially 
important for Jordan. It keeps us within the context of what we 
have. It allows the government to budget and plan for the next 
4 years. The memorandum of understanding expires this year and 
we are in negotiations with the State Department for the 
renewal of that memorandum of understanding for the next 4 
years. As I said, it enables us to plan amidst very fluctuating 
uncertainties that Jordan is bearing right now.
    But add to that, may I also add one more point, sir, which 
is extremely important. Helping Jordan to help the refugees is 
extremely, extremely important. Thanks to you, we are able to 
do that. And you know that. And but I would like also to add 
that helping the host communities that takes care of the 
refugees and the refugee camps is extremely important. I mean, 
it's because they are sharing the little bit that they have. 
And----
    Senator Graham. Right. Well, I've been to the communities, 
they're really under siege. Jobs were very hard to come by 
before the refugees came. Can you imagine having 600,000 or 
800,000 new people competing for the----
    Ambassador Bouran. Absolutely. Absolutely.
    Senator Graham [continuing]. Few jobs that exist.
    Ambassador Bouran. Thank you for saying that.
    That's why the government is in negotiations now or are in 
engagement with the State Department; crucially important for 
Jordan. But in addition to that, the government has worked with 
the certain donor agencies to prepare a strategy or a platform 
for the different projects that are catering the local 
communities and the host communities.
    Senator Graham. How would you describe the pressure being 
placed upon the Jordanian Government and people from Syria?
    Ambassador Bouran. Huge.
    Senator Graham. Huge.
    Ambassador Bouran. Huge.
    Senator Graham. I mean it is----
    Ambassador Bouran. Huge. Huge.
    Senator Graham [continuing]. Unsustainable without help. 
Don't you think?
    Ambassador Bouran. Very much so. Very much so, sir.
    Senator Graham. Yes.
    Ambassador Bouran. Very much so. And you have been at the 
very forefront in terms of helping Jordan, but really and truly 
more help is very much needed.
    Senator Graham. Mr. Harper, what would happen if Jordan had 
to close their borders?
    Mr. Harper. Well, what we are seeing is that something 
which we don't even want to contemplate.
    Senator Graham. And it's that bad; isn't it? I mean, if 
Jordan and Lebanon for some reason said, ``Hey, we can't handle 
it?''
    Mr. Harper. Well you're going to have--having borders open 
is a lifesaving element and we should recognize that Jordan is 
not a signatory to the 1951 Convention on Refugees. What they 
do is because of the tradition of generosity----
    Senator Graham. Right.
    Mr. Harper [continuing]. And a culture of helping those 
people fleeing conflict. It's not because there's a paper 
document.
    Senator Graham. Right.
    Mr. Harper. And we don't need a paper document. What we 
need to do is to ensure that Jordan does not suffer any more 
than what it has. That this is an international conflict.
    Senator Graham. Right.
    Mr. Harper. And Jordan and Lebanon, and the countries 
around it, are absorbing this international conflict.
    Senator Graham. Right.
    Mr. Harper. And, if you allow me, I'd just like to give you 
an example of the impact on the host communities. In Mafraq, so 
when you went to Zaatari, the town which is to the left when I 
was there, there is a hospital in Mafraq. There are 16 baby 
incubators there. Twelve of them were being used for Syrians, 
another two were being used by other nationals. This just gives 
an example that the amount of support that we need to mitigate 
the impact of the Syrians. And we use that, but you can also 
look at the amount of water which is being brought into the 
country. And people are talking about aquifers, but the 
aquifers are not being renewed, as well. So what Jordan is 
doing is it's leveraging its future in order to pay the price 
of being an example to the rest of the world in regards to how 
to handle a refugee crisis. So we need to not only provide 
support now, we need to provide support to mitigate these 
costs.
    Senator Graham. I got you.
    Mr. Ambassador, from a Lebanon point of view, what kind of 
pressure is your country under from Syria?
    Ambassador Chedid. Beyond any imagination, Mr. Senator.
    As you can see on this map, the red dots are where the 
Syrians are in Lebanon. So barely, we still have some white 
areas, and those are mountainous areas, where they cannot live.
    So it is a pressure on every level; let it be on the 
budget, let it be on the education. We opened our schools to 
the refugees. Of course----
    Senator Graham. So level of stability, security----
    Ambassador Chedid. Yes. And security, law and order, and 
the infrastructure, the water, the, you know, the gas and 
everything.
    Senator Graham. Right.
    Ambassador Chedid. And especially, of course, security.
    Senator Graham. Right.
    Ambassador Chedid. We are a very delicate country.
    Senator Graham. Yes.
    Ambassador Chedid. Where equilibrium is very important.
    Senator Graham. My time is about up. But I'd like to end 
with: where are we going to go?
    Madam Ambassador, Mr. Ambassador, you live in the region. 
Do you see this war coming to a conclusion any time soon? Can 
we expect Assad to be in power this time next year? And how 
does this movie end, for a lack of a better term? Could you 
give a brief answer as to what you--how long will the conflict 
go? And is Assad winning? And how does it eventually end?
    Ambassador Bouran. Well----
    Ambassador Chedid. As the--please, go ahead, Madam 
Ambassador.
    Senator Graham. Ladies first.
    Ambassador Bouran. Thank you. Thank you.
    We remember many times when we would meet in your good 
offices, Senators and Ranking Member, we would definitely 
tackle on this issue and say, what's the timespan and what have 
you, but apparently this is something that is difficult to 
predict.
    From what we're seeing on the ground, the give and take 
that's happening in terms of the activities in the field inside 
Syria, makes it even very vague. I mean, in terms of what's 
happening inside on the military ground. But more importantly, 
if I may just add one, one second, the refugees that we're 
hosting in Jordan, any refugee would flee, would take him a 
second to flee a country when he's in harm's way. But, that 
refugee, it will take them years for them to contemplate on 
going back to their country safely.
    Senator Graham. Right.
    Ambassador Bouran. This is where the pressure in Jordan is. 
Not just receiving and hosting the refugees now, but also we 
have to think of hosting them for the medium term. And this is, 
again, the multiple affects and multiple pressures that Jordan 
has. And this is where your kind help and support is very much 
appreciated as always.
    Thank you.
    Senator Graham. Yes. If you could briefly give----
    Ambassador Chedid. Of course.
    This ugly war is still going on. We have to go to the 
crystal ball of Mr. MacLeod to see how it would end. Geneva 
too, is coming. We hope so. We hope to find a political 
solution but it doesn't look like very reassuring. We are very 
concerned. This is most depressing statement I heard from Mr. 
MacLeod, that they would expect like 1.5 million refugees to 
come.
    Senator Graham. I think it's very realistic.
    Ambassador Chedid. And we reached saturation, Mr. Senator. 
We reached saturation physically. Lebanon cannot take it 
anymore. So we hope that the war will end tomorrow. It doesn't 
look like, but we wish Geneva, too, could come up with a 
certain solution.
    Senator Graham. Right. Senator Shaheen. Thank you.
    Senator Shaheen. Thank you, Mr. Chairman. Thank you all 
very much, not only for your testimony today, but what you are 
each doing to address this humanitarian crisis. And Ambassador 
Bouran and Ambassador Chedid, thank you both very much for what 
your countries are doing. It is truly remarkable that you have 
been willing to take on this number of refugees. And even 
though the world hasn't shown it to date we certainly are 
grateful for what you've done and we need to provide additional 
assistance.
    I want to actually start with Assistant Secretary Richard, 
because I'm sorry I missed your testimony, but obviously, one 
of the most important things that we can do to address this 
crisis is to improve the situation on the ground in Syria to 
make sure that the people who are there, who are displaced, are 
getting help that they need and to end the conflict. So can you 
talk a little bit about whether there's more that we can do as 
the United States, through the U.N., to make sure that the 
assistance is getting to people who need it and inside Syria?
    Ms. Richard. Thank you, Senator, for the question.
    Of the $1.3 billion that the United States Government has 
contributed to respond to the crisis in Syria and the region, 
700 million has been spent inside Syria; getting aid inside 
Syria. It's been done by the U.S. Agency for National 
Development and also by our bureau, Population, Refugees and 
Migration Bureau, working with these partners chiefly U.N. High 
Commissioner for Refugees, the U.N. Refugee Agency, but also 
the International Committee of the Red Cross, the United 
Nations Relief and Works Agency (UNRWA) that is the lead with 
the Palestinians and with the United States Agency for 
International Development (USAID), it's with the World Food 
Program that does so much to feed everyone.
    So where they've been able to get access, they've been able 
to do tremendously good life saving work. The problem is 
there's over 2 million people inside Syria who are in places we 
cannot get regular access to and there's also people who are in 
these besieged cities where they are completely cut off from 
aid. And so this is why the diplomatic track is so important in 
trying to get countries around the world to put pressure on 
various parties to the conflict inside Syria so that they 
respect international humanitarian law and they let the convoys 
roll and they stop targeting medical facilities and stop 
targeting civilians. This attack on civilians is one of the 
most gruesome things I've ever seen in my adult life in terms 
of just going against and harming innocent families, children 
or causalities of this war. And it keeps continuing. So we are 
trying very hard to see if pressure can be brought to bear on 
all sides to stop this type of bloody attacks on civilians.
    Senator Shaheen. Well obviously, two countries that could 
be very helpful who have not yet been willing to step up in the 
way that I think is really needed are Russia and China. And are 
there ways in which we can encourage them to really take the 
responsibility that they have as world powers to stop this 
humanitarian crisis?
    Ms. Richard. Well, they have been engaged through the U.N. 
Security Council, through their membership on the Permanent 5. 
But more recently, 2 weeks ago, I was in Geneva, and for the 
first time I personally was in meetings with counterparts from 
around the world including Russia, Iran, China, Saudi Arabia, 
other Gulf States, and in addition to the usual major donors to 
the Humanitarian Enterprises. And so I think this is a good 
step in terms of having these conversations.
    What we need to see now is whether this happens on the 
ground; whether this converts then, these conversations, 
convert into changes that are tangible and make a measurable 
difference on the ground. And that we have not yet seen.
    I mentioned in my testimony, we've seen some utterances 
from the Syrian regime now, that they will provide visas. And 
they have provided some visas that they will let convoys 
through but we haven't seen enough difference on the ground for 
me to give you a positive report yet.
    Senator Shaheen. Well, again, I don't know if anybody else 
on the panel has thoughts about whether there's more the United 
States can do to try and encourage other members of the 
international community to step up, given that the amount of 
money that had hoped to be raised. The U.N. asked for $4.4 
billion. It's my understanding that as of now we've only raised 
about 60 percent of that internationally.
    Are there other efforts that we can undertake that we can 
try and encourage additional support to address this crisis?
    Ms. Richard. Well, just quickly. There will be this 
pledging conference in January.
    Senator Shaheen. Right.
    Ms. Richard. This will be the second time Kuwait hosts 
that. And so, we're busy on the diplomatic front now 
encouraging countries to give.
    Go ahead, Madam Ambassador.
    Ambassador Bouran. Not at all. I was about to mention the 
same thing, Assistant Secretary, and say that Kuwait has been, 
as well as other Gulf countries, has been extremely generous 
when it comes to the Syrian refugees and helping Jordan. But 
this is a crisis of a different magnitude. This is a crisis of 
a different depth that needs, yet again, to be discussed during 
the next upcoming conference on the Syrian refugees. But every 
aspect of help and support is needed to help Jordan with the 
refugees and to help the host communities which are hosting the 
council as well.
    And as I said earlier, not only you have been at the 
forefront in terms of helping Jordan cope with that, you have 
been our voice as well with other international organizations, 
with everyone that have helped.
    So I cannot thank you enough, I mean, for all the great 
support that you are giving us.
    Senator Shaheen. Ambassador.
    Ambassador Chedid. I would say and thank the 
administration. They are doing, of course, a good job. And we 
thank them in pushing other countries, like you mentioned, 
Senator, to help and assist and the United Nations High 
Commissioner for Refugees (UNHCR) and other agencies. And just 
to keep doing what they are doing and to increase it, and to 
show how important it is, not only from a humanitarian point of 
view, but from a stability point of view, the regional 
stability, because it will really, if we are not helped, then 
the region's stability will be threatened and a conducive 
ambiance for terrorism would be there, so just to continue with 
the international community.
    Thank you.
    Senator Shaheen. Thank you.
    And I think it's certainly fair to say that the members of 
the Senate share the concern about regional stability and we 
want to do everything we can to support you.
    The foreign relations committee had a hearing back in 
September and one of the issues that was talked about was the 
concern about the spread of polio, a polio outbreak. And, 
Ambassador Bouran, you talked about the effort to immunize 
children. I wonder if anybody could speak to whether you think 
that outbreak is under control, whether there's more that needs 
to be done to address it.
    Mr. Harper. Thank you, Senator.
    It's not under control because the situation in Syria is 
out of control. Jordan, for instance, not only polio but in 
regards to measles, measles was eradicated in 1994. We're now 
in a situation where we've got illnesses and medical conditions 
which can transcend the borders. And so this is also another 
reason why we have to put in so many resources into the medical 
system in Jordan because the failure and destruction of the 
medical system in Syria is then meaning that people are coming 
across from Syria into Jordan to seek assistance. And you'd do 
the same if you had a sick child, because many hospitals have 
not been working for the last 6 months, 12 months.
    So, Jordan is seeing an increase in the northern areas of 
up to 20 percent increase in the numbers of patients. But 
Jordan doesn't have enough support and money to pay for the 
pharmaceuticals for its own population. And so, we want Jordan 
to keep its borders open, we want them to be able to accept the 
refugees, but the refugees coming across are the most 
vulnerable. And we're seeing the cases of polio increasing in 
numbers in Deir Ezzor, in rural Damascus. And these people will 
continue to come to the surrounding countries, not only Jordan 
but Lebanon and elsewhere, seeking assistance and treatment.
    So we've finished the first round of polio vaccinations; a 
joint effort between the World Health Organization (WHO), the 
Ministry of Health, the United Nations International Children's 
Emergency Fund (UNICEF), and the United Nations High 
Commissioner for Refugees (UNHCR). We had a mass information 
campaign where we sent short message services (SMSs) out to 
every refugee saying come forward but now that has to be 
followed through. Because, diseases and illnesses which have 
been largely eradicate from Jordan for the last 20 years will 
start emerging again and these are the costs which have not 
often taken into account. So bringing back the medical system 
to the pre-crisis level is not sufficient because the health 
situation in Jordan has now deteriorated probably decades 
before that.
    Senator Shaheen. And my time is up, but if I could just ask 
this, I assume the same is true in Lebanon?
    Ambassador Chedid. Exactly. Of course.
    The same is true. And we provided vaccines to all the 
children of Lebanon and, of course, to the refugees. And UNHCR 
has been, of course, a big help, and the World Health 
Organization, too. But as much as we do, we need everything.
    Thank you.
    Senator Shaheen. Thank you.
    Senator Boozman. Thank you very much for having the 
hearing.
    Following up on that, in regard to those kinds of 
situations, we're in the process of trying to do the very best. 
I think the United States can be proud of their efforts as far 
as sending aid, monetarily and otherwise. What are some of the 
other challenges besides sending money? You mentioned the 
health issues that are going on in Lebanon and other places.
    Madam Ambassador and Mr. Harper, can you comment on some of 
the other things? If we were fortunate enough to have a 
resolution, all of these people aren't going to go home 
overnight. That's going to be a huge problem. Can you comment 
on some of the other things besides the monetary aid?
    Ambassador Bouran. Well, actually, thank you.
    Senator Boozman. You mentioned water earlier in Jordan.
    Ambassador Bouran. Absolutely. Thank you so much. Thank 
you. Thank you so much for the question.
    And as I said earlier in my testimony, that each and every 
vital sector in Jordan is in need of help and support. Mr. 
Harper highlighted on the issues related to the healthcare 
right now. And as you know our hospitals are wide open and we 
don't, I mean, distinguish between a Jordanian patient or a 
Syrian patient. So this huge load on our healthcare is very 
much there and you can see it.
    As for the electricity, for example, this is a country, 
Jordan is a country that imports 96 percent of its oil and gas 
from outside market prices. And the electricity, now it's being 
subsidized, but now we are lifting the subsidy, I mean, in a 
gradual sense. But, still, we're paying a lot in terms of the 
energy bill is humongous.
    And when you look at the camp over there, sir, and you can 
see it now, it looks like this but it's the fourth largest city 
in Jordan. It's the first largest camp in the world. This camp 
needs to be serviced. This camp needs, not just the services in 
terms of health and security and everything that I have 
mentioned before, but it needs the electricity's to be lit all 
the time so that we can take care of the residents over there. 
So the generation of electricity and the energy bill is 
enormous.
    Add to that, that Jordan was really affected due to the 
interruption of the Egyptian gas in the past 2 years. Do you 
remember? It was blown up around 17 or 18 times. Every time we 
have to buy now, market prices, you needed to satisfy and cater 
for the needs of Jordanians as well as the camps. But if I 
might draw your attention, this camp is situated in one of our 
biggest governance in Jordan who are in need, as well. They 
need the electricity, they need the water, they need the 
sanitation. Add to that, this is a camp that is sitting on our 
best aquifer and if this is polluted then this is going to be a 
high price for us, water wise, in terms of the years to come.
    So this is where I'm really stressing the point of helping 
Jordan to help the refugees in one aspect, but also, please, 
helping Jordan to be able to help the co-host communities that 
are helping the refugees. And we have to be prepared. We have 
our own developmental projects that say this is what the 
governances need. This is what they need in terms of energy, in 
terms of water, in terms of beds and schools and everything 
that you can think of, this is where it is because Jordanians 
have now lost over 180,000 jobs to Syrians and this is a lot 
for a small country that has its own burdens in terms of the 
economic crisis.
    So every support is very much help and needed. And the 
memorandum of understanding, as I said, will start the process. 
It will enable us to think and to plan and, at the same time, 
we will be able to seek more funds for the host community 
platform strategies that Jordan is working on. It's very 
accurate. It's very well crafted. It's a strategy and it says 
those are the needs and this is exactly what's happening on the 
ground.
    Senator Boozman. Good. Thank you.
    Ambassador Bouran. Thank you.
    Senator Boozman. Mr. Ambassador, you, in your testimony 
said that if you had to continue to accommodate the 
extraordinary amount of refugees, and then we had testimony 
that to your surprise maybe a whole bunch more or in the 
pipeline if things continue on, you said that you would be 
forced to offer a different approach in dealing.
    Can you elaborate on that? What would the different 
approach be?
    Ambassador Chedid. Thank you, Senator.
    What I was trying to say is we are really in a disastrous 
situation. In terms of numbers, Lebanon is the country that is 
hosting the highest number of refugees, of Syrian refugees, and 
of Palestinian refugees. And right now, we reached like almost 
1.3 million which you know we arrived to saturation and 
physically we cannot. Physically, we cannot. We are in need of 
every single thing in terms of education, infrastructure, 
water, health. They are competing, you know, the Syrian 
refugees are competing with the Lebanese themselves.
    I explained in my statement about unemployment, about the 
competition, and about all those things that my colleague and 
now the Jordanian colleague has said. And I emphasize that we 
are keeping our borders open and we intend to keep them open, 
but when you reach something impossible to bear----
    Senator Boozman. So you reach a limit.
    Ambassador Chedid. When we reach a limit, I was talking 
physically, not politically in terms. Because so far, all of 
Lebanon, even if I called it a cry of pain, in my testimony, 
but we don't intend to close our borders but we have to say and 
we have to appeal to the international community that they 
should also come to help and aid to enable us to continue 
sheltering those refugees.
    So that was my idea about we have to opt about something 
else. Let's do not force us to arrive to the limit. Do not 
stretch us physically, to arrive to a limit when we cannot.
    Senator Boozman. Let me ask Mr. MacLeod.
    Does the international community understand the nature of 
the crisis with their neighbors? We have testimony like this 
from the Ambassadors basically saying that there is a limit, 
and when the limit is reached, even though they don't want to 
do, whatever, they will have to do things differently.
    Are we doing a good job of making the international 
community understand that we are truly reaching that crisis 
point?
    And it sounds like they don't, the international community, 
the neighbors--you put out a pretty startling statistic of 
future refugees that they don't even understand. So it sounds 
like we need to--perhaps we're lagging somewhere there.
    Mr. MacLeod. This crisis, as I have mentioned in my 
testimony, has moved with a speed and on a scale that nobody 
anticipated in 2011. Already, when we reached the number of 
50,000 refugees in Lebanon, the view then was this is already 
stretching capacity. We're now almost, as the Ambassador was 
saying, if you include Syrians who were in the country prior to 
the conflict, we're reaching plus Palestinians, we're reaching 
1.3 million.
    The elasticity of the absorption capacity, I don't think 
anybody is really in a position to say. What I would say is 
that the study undertaken by the World Bank and the United 
Nations in August, September, pointed to the immense costs to 
the State of Lebanon and to the people of Lebanon for that. And 
that, in my experience, has been one of the earliest studies 
ever done in such a refugee situation. We hope that that has 
gained attention. We do know that it led, in part, to the 
creation of the Friends of Lebanon: a group who is meeting in 
New York on the margins of the General Assembly that took place 
on 24 September. Of course, we would wish that the issue did 
gain greater traction than it has already.
    I think we just all have to keep pressing and illuminating 
these startling facts which, as I underlined in our history, is 
relatively unique as an organization to have had to address.
    Senator Boozman. Thank you.
    And again, hopefully that's the purpose of this hearing, 
that we might make the issue rise to the surface.
    Thank you, Mr. Chairman.
    Senator Coons. Thank you, Senator Graham, and thank you for 
your leadership on this issue. Thank you, Chairman Leahy, for 
holding and convening this hearing today; and to our many 
witnesses, especially Ambassador Bouran, Ambassador Chedid, for 
your service and for the firsthand perspective you're providing 
about what the United Nations High Commissioner for Refugees 
(UNHCR) is doing and what the United States Government is 
doing. We also appreciate your perspective on the very real 
challenges and burdens faced by the people of Lebanon and of 
Jordan as we all try to work together to make sure that 
refugees are being treated with respect and with humanity while 
we resolve this ongoing grinding and terrible civil war in 
Syria.
    The Zaatari refugee camp which we saw first hand with 
Senator Graham and a number of others earlier this year, was a 
deeply moving experience. I've been to refugee camps in Africa, 
but never seen one of this scale that grew this quickly, and 
where the folks in it had gone through so much and were so 
engaged and so passionate about what they expected the United 
States to do and felt that we were not yet doing. So it has 
stayed with me for a while, and I appreciate the chance to be 
with you.
    Now if I could mention just briefly at the outset, Mr. 
MacLeod and Mr. Harper, the refugee situation is unusual in 
that it has evolved quite rapidly. There's a significant number 
of refugees in urban areas who are not in camps. The cross 
border flows have been tremendous and have continued to exceed 
any expectations.
    What's being done to keep track of, to register, to connect 
refugees to information and resources and, forgive me if I've 
missed this in previous testimony, what more could we be doing 
to insist that across the international community, the United 
States and others, are not duplicating efforts, that we're 
doing everything we can to be as effective and as responsible 
to delivering assistance collaboratively in Lebanon, in Jordan, 
and elsewhere?
    And then, I'll go to the Ambassadors, if I may.
    Mr. Harper.
    Mr. Harper. Yes. I'll go first because I'm closer.
    Thank you, Senator. And it's good to be here in Washington 
to also update you on where we stand after your visit to the 
camp.
    What we're doing to keep track of the refugees, we're 
working very closely with the Government of Jordan and again, 
as another example of the very close partnership that we have 
with the Government of Jordan, we're about to establish a joint 
registration system which we based on biometrics, where for the 
first time, every refugee in Jordan, probably by about 
February, will be registered through biometrics.
    Out of the 600,000 plus Syrians who have entered Jordan 
since March of 2011, we've now registered something like 
565,000. And we're registering, by the day, 1,500, 2,000. I 
believe we've now got the biggest registration center in the 
world and probably the most advanced registration center in the 
world in Jordan. And this is something for which, I think, 
we've been very proud of. We had a waiting period at one point 
of 4 to 5 months for Syrians to register. Now, they're the same 
day. So Syrians, as soon as they come, can be registered.
    We are getting most Syrians coming to us because they're 
required to be registered to access Jordan's free medical 
system and education. So, there's an added advantage of that.
    Another element which we are doing is, previously documents 
used to be taken, brought from the refugees at the border. With 
this new system, they're being returned to the refugees. So 
we're moving them the right way. So despite all the challenges 
that we have, the partnership is strong and we're introducing 
increasing checks and balances to ensure that we know where the 
refugees are and what their needs are.
    Part of the assessment that we do is that we undertake home 
visits as well, because one of the issues is that the vast 
majority of refugees in Jordan are hidden. They're in 
basements. Ten percent of the population live in basements. We 
know that because we've undertaken 70,000 home visits and I 
dare say there's no other refugee operation in the world where 
an organization has undertaken 70,000 home visits to assess the 
well-being the refugees who are in the urban environment. So 
we've got a very good understanding of where the refugees are, 
what their needs are. The problem is that we don't necessarily 
have the means to address all those needs.
    But the bottom line is, we're tracking refugees from the 
time they cross the border, and we're introducing the most 
modern accountable systems to keep track of them and to help 
them where we can.
    Senator Coons. To Assistant Secretary Richard, what's the 
United States doing to ensure that we're avoiding duplication 
of effort, that we're doing a better job of delivering 
assistance within the boundaries of Syria to reduce the 
outflows? Also, what are the major challenges you face that we 
might be able to help in some way with in the Senate?
    Ms. Richard. Avoiding the duplication of effort is one 
reason that we provide funding through multilateral 
organizations like the United Nations High Commissioner for 
Refugees (UNHCR), the United Nations International Children's 
Emergency Fund (UNICEF), World Food Program, because they have 
comprehensive plans in how to address the highest priority 
needs, and they also pull together then appeal for aid for the 
region. For this calendar year that's about to end, the appeal 
that was issued last June 7 called for 4.4 billion through the 
end of 2013. So the 1.3 billion that the U.S. has been able to 
give, thanks to the generosity of the American people, as 
channeled through this subcommittee, this all important 
subcommittee, has been a major contribution, but as was said 
earlier, only two-thirds of the funding called for in the 
appeal has been raised.
    So in addition to providing assistance through these 
important multilateral partners, through nongovernmental 
organizations who can sometimes be very nimble and address gaps 
in the delivery, we also are providing aid to close partners 
like Jordan to help them handle the refugees at the same time 
as they are providing services to their own poor citizens who 
need help and are, you know, stretching their services to reach 
everyone. And then, we're also diplomatically reaching out to 
other countries asking them to do more and join us in taking 
this seriously.
    And so we're moving on several fronts at once and we know, 
though, how precious foreign aid dollars are and that we can't 
waste them; we can't fund duplicative efforts.
    Senator Coons. Thank you.
    Ambassador Chedid, I'm from the small State of Delaware 
which is smaller even than Lebanon. And we have a population of 
about 800,000 roughly in our State. To have absorbed that many 
refugees is remarkable. As I've read about its impact on your 
society and the support and the services you've provided so 
far, it's of grave concern to me. The humanitarian suffering is 
significant and the impact on your economics and politics also 
concern me.
    To what extent has this significant refugee inflow 
exacerbated some of the tensions, and some of the sectarian 
divides? To what extent is there a real risk of conflict in 
Syria reigniting conflict in Lebanon given the closeness and 
the movement across the border of many different armed 
elements? Finally, what might we do with your humanitarian 
challenges with respect to the refugees that would help 
minimize that impact for Lebanon?
    Ambassador Chedid. Thank you, Senator. And thank you for 
understanding that much, you know, when you compared, of 
course, you know the size of Lebanon to Delaware and the number 
of--so you can live with us a little bit and think with us 
about this huge, huge problem.
    As a matter of fact, of course, geopolitical situation is 
at its best between Syria and Lebanon and that's why we are 
suffering, of course, definitely from the Syrian predicament. 
As long as it goes in Syria, as bad as it is in Lebanon, that's 
why I reiterated so many times that we are for the political 
solution and we hope that Geneva, too, could produce something.
    But meanwhile, the refugees are in Lebanon. Definitely, 
they are putting a lot of pressure on the intercommunal 
equilibrium in Lebanon. So far, they have not been interfering 
in this, but, as I said, they are staying for a long time and 
that puts a lot of pressure on Lebanon, on our security forces, 
on the Lebanese army, on the internal security forces, also to 
keep law and order, and to keep them also safe, and to try to 
help them, and to secure for them all the humanitarian needs.
    What can you do? First of all, I would like, definitely, to 
thank the American Congress and administration for all the 
valuable assistance. The funding that the Congress, the 
esteemed Congress, provided to Lebanon was and is still 
essential for saving lives and to help Lebanon to cope with 
this crisis. And the American assistance is the highest for any 
single one country offered and it has reached, so far, $254 
million. And we thank you for that and we thank the 
administration.
    We definitely encourage you to keep going. That's why we 
are here today to present our cases and to tell you please 
continue to help through the U.N. The administration, as I 
said, is doing a lot of great efforts diplomatically, and they 
are continuing to do this. That's how I see it, Senator.
    Thank you.
    Senator Coons. Thank you, Ambassador.
    Ambassador Chedid. Thank you very much.
    Senator Coons. Ambassador Bouran, if I might.
    I've visited Jordan twice and I've had a number of meetings 
there and here with His Majesty King Abdullah, who has been a 
remarkable partner. The people of Jordan have also absorbed a 
very significant challenge in terms of refugees which has led 
to humanitarian and strategic challenges for Jordan as well. I 
was very moved by King Abdullah's personal appeal for our 
ongoing support. Jordan and our vital ally, Turkey, have 
encouraged our increased humanitarian relief, in a way that can 
be effective in keeping Syrians in Syria, which requires some 
political solution, and in a way that recognizes that their 
countries which don't have significant resources of energy or 
water or public education, or health facilities, are really 
challenged by this.
    King Abdullah mentioned an interest in strengthening 
private sector investment and in job creation to help move the 
economy forward. I'm also concerned about the same question, 
about the stability of Jordan's economy. And lastly, what sort 
of a political solution in your view can be achieved in Geneva?
    So, if you may provide your thoughts to those three 
questions and then I'll hand it to Senator Boozman.
    Ambassador Bouran. Thank you. Thank you, Senator, very 
much. And thank you so much for your visits to Jordan. And I 
know that His Majesty takes very amazing, I mean, moments when 
Senators are visiting and the esteemed Jordan and the visiting 
of the camps, not just within this crisis but in general during 
our long, long years of partnership and strategic alliance.
    We see it as a fact that this is a purely political issue. 
I mean, the humanitarian aspect that we're--and the surrounding 
countries, this is the overspill. This is the out-product of a 
dire political situation inside Syria.
    And as I said earlier in my statement, that this is an 
escalating, evolving situation inside Syria that is drawing--
that's acting like a magnet that's drawing extremists from all 
over and this is making, yet again, issues related to our 
security. I mean, we're very careful and thanks to your help 
and support, I mean, of maintaining the internal stability of 
Jordan.
    We're strong, we're resilient, and we are safe, and that is 
why we are hosting that number of refugees. A country that is 
not self-confident that's able to do that, will never open its 
borders. But we're committed to open our borders as much as 
direct access to the government has been clear and willingly, 
God knows, we're doing that. But the situation comes to a point 
where you cannot really take it any longer in terms, as my 
colleague said, in terms of the, not the political issue, but 
the actual physical sense of receiving, of getting more 
refugees. But, never the less, as I said, we're committed to 
that.
    Our borders are open. We still, our schools and our 
hospitals, are wide open. We don't, as I said early, you know, 
make difference between a Syrian refugee. Please bear in mind 
that we still have 420,000 Iraqis living in Jordan. We host 13 
camps of Palestinian refugees.
    So this is where the resilience of Jordan, this, where this 
is a country that's able to bring together all those who are in 
need, and this is where our common values and where we share 
our main principles. You are a country, as well, that extend 
everything that you have with a difficulty in terms of the 
financial budgetary matters, but when it comes to Jordan and, 
if I may highlight this, each and every office that I visit, 
and your good offices and Senator Boozman office, I hear 
everywhere, in spite of the difficulty, we have prioritized our 
issues and Jordan is a priority. And I cannot thank you enough 
on behalf of Jordan and on behalf of the Jordanians. It's 
difficult but thanks to your support we are able to come across 
all this.
    May also highlight this. I cannot but applaud the 
remarkable work that the U.N. is doing. The UNHCR, and 
especially Andrew, your team, your good self, and your team, 
they're working day and night. I mean, the floods and the rain 
and what have you, they're there every minute without armed 
forces, without non-governmental organizations (NGOs). So this 
is a moment for me to thank you. Thank you, and thank your 
team, and thank your dedication to Jordan, and to helping the 
refugees. You do it from the heart. You do it because you know 
that this is a situation that you need to act. And we're there 
working hands and hands. And thank you for calling this a 
partnership. I think it's more than a partnership. This is more 
becoming like a brotherhood and we are achieving together, with 
your help and support, the difficult situation we are found in.
    But may I please add, again, this is a strong country. This 
is a resilient country that is able to take all this and stay 
outside of the conflict safe and secure because of our able 
Armed Forces and of our security agencies that are working also 
day and night to make sure that this country is safe and able 
to bring more of or open its doors more for anyone who is in 
need.
    Senator Coons. Thank you, Ambassador.
    Ambassador Bouran. Thank you again for your----
    Senator Coons. Thank you, Ambassador. And thank you so much 
for the work that UNHCR is doing, to our own State Department 
executive branch leadership that is making some of this 
possible.
    If I might add in closing, it is the foundation of our 
shared ethical, humanitarian, and religious traditions that 
says that hospitality to the stranger, to the orphan, to the 
widow is our most fundamental calling, but to do so at the 
scale that you are experiencing is exceptional. And so, we are 
grateful for the example that you show to the world of 
sustaining this hospitality even under these incredibly 
difficult circumstances. And it is an honor to be with you 
today.
    Thank you. Senator.
    Senator Boozman [presiding]. I would agree with that and 
just thank all of you for the exceptional job that you're 
doing.
    It's hard to imagine the size and scale of these camps 
unless you actually visit. And I'm glad that we got to visit 
about some of the--these are, they're not small cities, in some 
cases they are large cities. And all of the things that have to 
be provided and they're all being provided as best as possible. 
And again, really are doing a good job of providing the 
necessary resources. It's just everybody working together. So 
we appreciate you and certainly we'll do anything we can to 
help you in your efforts.

                     ADDITIONAL COMMITTEE QUESTIONS

    The hearing record will remain open until 5 p.m. Friday, 
December 13, for the submission of written questions by members 
of this committee.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                Questions Submitted to Hon. Anne Richard
            Questions Submitted by Senator Mary L. Landrieu
    Question. As the number of refugees in Lebanon continues to 
increase, the demand on basic public services like education, health, 
water, housing, electricity and sewage has reached an unsustainable 
level. Lebanon's fragile infrastructure cannot cope with the ongoing 
increase in population, especially in areas where the host communities 
are already poorly served. Education is a major concern for Syrian 
refugees in Lebanon, where more than 80 percent of Syrian children are 
currently out of school. What is the U.S. Government and U.N. agencies 
doing to provide immediate support to host communities in Lebanon to 
ensure that local and national educational infrastructure is able to 
absorb the large number of refugees arriving daily? What efforts are 
underway to create innovative ways to increase the number of children 
in school?
    Answer. As the Syria conflict enters its fourth year, the influx of 
refugees fleeing the fighting into Lebanon continues to increase. As of 
December 10, 2013, there were more than 838,100 Syrian refugees 
registered or awaiting registration in Lebanon, making that country the 
largest refugee-receiving country in the region. The United States 
believes education is a vital component of our humanitarian response 
and has supported education programming and policies in neighboring 
countries since the onset of the Syria crisis. The United States is 
also a champion of the ``No Lost Generation'' initiative, a long-term, 
multi-stakeholder effort that aims to mitigate the impact of the crisis 
on an entire generation of children.
    In Lebanon, in response to the crisis, the Ministry of Education 
and Higher Education (MEHE) opened public schools to Syrian refugees 
starting in 2011. However, as the number of refugees has increased, 
Lebanon's public education system has been unable to absorb the 
overwhelming numbers of school-aged children, resulting in more than 
300,000 Syrian refugee children being left out of formal public school. 
This figure could rise as high as 600,000 by the end of 2014, according 
to the United Nations Children's Agency (UNICEF). The United States is 
committed to addressing these growing needs through our humanitarian 
support to international and non-governmental organization (NGO) 
partners and through our bilateral development assistance to Lebanon.
    MEHE, U.N. agencies, and NGO partners outlined an ambitious 
education plan as part of the Syria Regional Response Plan (RRP6) for 
2014 that prioritizes: (i) enrollment in formal and non-formal 
education; (ii) increased support to the quality of education; (iii) 
government and partner capacity-building; and (iv) professional 
development for educators. In coordination with MEHE, UNICEF and the 
United Nations High Commissioner for Refugees (UNHCR) enrolled 43,000 
Syrian students in public education during the 2012-2013 academic 
school year. For the 2013-2014 school year, MEHE has agreed to 
accommodate some 75,000 refugee children in public schools. The 43,000 
refugee children who enrolled in 2012-2013 will continue their 
education during regular school hours, and UNHCR will support more than 
32,000 additional children in ``second-shift'' afternoon classes in 87 
public schools. This model aims to maximize use of the existing 
education infrastructure.
    Despite these efforts, education assessments have highlighted a 
number of barriers to learning for Syrian students, including 
differences between the Lebanese and Syrian curricula, language 
barriers (the Lebanese curriculum is primarily taught in French and 
English, while the Syrian curriculum is taught in Arabic), 
transportation costs and inaccessibility, and additional costs such as 
for uniforms and books. UNHCR, UNICEF, and implementing partners are 
addressing these concerns through both formal and non-formal education 
initiatives.
    In addition to efforts to increase enrollment in formal education, 
the United States supports UN agencies and NGOs to provide non-formal 
education services to Syrian and vulnerable Lebanese children. UNHCR 
supported 7,318 children in accelerated learning programs in 2013 with 
the aim of enrolling these children in the second shift of the 2013-
2014 school year. These programs target students at risk of dropping 
out by providing catch-up classes to make up for extensive periods out 
of school and creating safe spaces for traumatized children. 
Additionally, the programs focus on providing education settings that 
are safe and accessible, and that will build the academic and social-
emotional competencies children need to be resilient, make healthy life 
decisions, and be successful post-conflict.
    Recognizing the long-term risks of the protracted crisis in Syria 
and its impact on the region, the United Nations and its implementing 
partners launched the ``No Lost Generation'' initiative in October 
2013. In Lebanon, the strategy aims to provide 346,500 children with 
access to learning opportunities by improving learning environments, 
supporting teacher training, providing institutional support to MEHE, 
providing 300,000 children with a protective environment, including 
psychosocial support services and capacity-building for child 
protection organizations, and broadening vocational opportunities for 
382,000 children and adolescents, including life-skills training 
programs. The United States supports the ``No Lost Generation'' 
initiative through our contributions to international and non-
governmental organizations, as well as through our bilateral assistance 
to address long-term education development.
    In partnership with MEHE, the United States provides basic 
education assistance under the Developing Rehabilitation in Schools and 
Teacher Improvement (D-RASATI 2) initiative. It is providing computer 
equipment and furniture to public schools, improving the English 
proficiency of teachers, and training school principals, in addition to 
increasing community and parents' involvement in their children's 
education, and creating extra-curricular activities for students. This 
U.S.-funded bilateral education program is working to strengthen school 
counseling and psychosocial services and improve the quality of 
learning for Lebanese and Syrian students.
    USAID's Office of Transition Initiatives program complements this 
education assistance to support the most vulnerable Lebanese and Syrian 
populations through programs that offer remedial education for Syrian 
and Lebanese students during the summer, provide students with the 
necessary books and other materials needed for matriculation, provide 
additional financial resources to hire additional teachers, and provide 
bus transportation for students.
    Question. The United Nations High Commissioner for Refugees' 
(UNHCR's) Refugee Children in Crisis report indicates that there are 
over 3,700 Syrian children in Jordan and Lebanon living without one or 
both of their parents, or with no adult caregivers at all. The report 
also describes that ``U.N. agencies and partners help to reunite 
unaccompanied children with their families when this is what they want 
and it is deemed to be in their best interest. When families cannot be 
found or traced, UNHCR and partners help children to find alternative 
arrangements, such as with another family in the community, and 
regularly monitor their well-being and living conditions.''
    Can UNHCR provide data regarding the number of . . . 
  --unaccompanied or separated refugee children living in Jordan and 
        Lebanon that have been reunified with their families?
  --unaccompanied or separated children that have been connected with 
        other families in the community? Is this by way of an official 
        domestic adoption? What is the screening process to ensure that 
        these new settings are in safe and emotionally nourishing 
        environments?
  --unaccompanied or separated children living in orphanages in Jordan 
        and Lebanon. Are there ongoing efforts to find families for 
        these unparented children, as well?
    Additionally, what activities are UNHCR and the State Department 
implementing to ensure that, once funding from governmental and private 
international donors are no longer available, the governments of 
Lebanon and Jordan have the capacity to provide medical, educational, 
and social services to the massive influx of refugee children?
    Answer. The U.S. Government funds organizations that work 
intensively to protect children affected by conflict and disaster, 
including unaccompanied or separated minors who are often the most 
vulnerable. Our assistance is provided within the framework of 
internationally agreed-upon standards for the best interests of 
children, including the U.N. Guidelines for the Appropriate Use and 
Conditions of Alternative Care for Children (2007), and includes 
support for family tracing and reunification. The United States has 
supported several global efforts to develop interventions to protect 
children in humanitarian settings (e.g., through the launch of the 
Minimum Standards for Child Protection in Humanitarian Emergencies in 
October 2012, the development of the Best Interest Determination Field 
Handbook) and to work with partners to integrate these practices into 
policy and strategies.
    Identification of and care for unaccompanied and separated children 
(UASC) is one of the five priorities for child protection 
organizations, as outlined in the U.N.'s Syria Regional Response Plan 
(RRP). UNHCR conducts vulnerability assessments at the time of refugee 
registration to identify at-risk children, as well as other protection 
concerns. UNHCR assists those children who have been separated from 
their parents based on the U.N. Guidelines for the Appropriate Use and 
Conditions of Alternative Care for Children (2007).
    In 2013 in Jordan, UNHCR, UNICEF, International Medical Corps 
(IMC), the Noor al Hussein Foundation, and the International Rescue 
Committee identified and registered 402 unaccompanied (140 girls, 262 
boys) and 962 separated (370 girls, 592 boys) children in camps and 
host communities. Out of the 402 unaccompanied children (UAC), 259 
children (including 58 girls) have been reunited with their families 
either inside the camp (128 children) or outside the camp (131 
children). The remaining children have been placed in interim family-
based care arrangements and are regularly monitored.
    In line with UNHCR's long-standing policy, adoption or other forms 
of permanent care are not recommended in an emergency context as it 
will take time until due consideration has been given to determine 
whether the child's family can be traced and the child reunited. UNHCR, 
UNICEF, and Save the Children International are working to finalize 
Alternative Care Guidelines with the Jordanian Ministry of Social 
Development (MoSD), including a formalization of alternative care 
arrangements by the courts. Alternative care arrangements are monitored 
regularly by UNHCR and partners through home visits and assessments. 
Potential foster families are identified and screened by UNHCR with 
specialized partners. In order to provide long-term assistance, UNICEF 
and UNHCR are exploring ways of jointly funding the MoSD to build 
Jordanian capacity to identify and monitor alternative care 
arrangements, including by increasing the number of social workers. 
UNHCR Jordan is not aware of any refugee children accommodated in 
orphanages in Jordan.
    In Lebanon, vulnerable children are identified during the refugee 
registration process; however, most of the children identified are 
temporarily separated and are quickly reunified with their family 
during the registration process. Those who are unable to be reunified 
are referred to the International Committee of the Red Cross' (ICRC) 
Restoring Family Links (RFL) service which provides reunification 
services. To date, the number of children requiring this service 
remains in the single digits in Lebanon and UNHCR Lebanon has not 
reported Syrian refugee children accommodated in orphanages in Lebanon.
    UNHCR and implementing partners in Lebanon continue to prioritize 
the needs of vulnerable children in line with the RRP. In partnership 
with the Lebanese Ministry of Social Affairs (MoSA), UNICEF and several 
specialized organizations are developing a comprehensive case 
management system to help identify and respond to the needs of 
vulnerable boys and girls separated from their families as a result of 
the conflict, including inter-agency SOPs for the identification, 
documentation, tracing, verification, and reunification of UACs. This 
system will enable Lebanese authorities to provide these services 
beyond the support of international actors.
    These efforts, which represent the continuing effort to strengthen 
the capacity of the humanitarian community, prioritize family care, aim 
to improve child protection, and develop links with the child welfare 
and protection systems in country, and are clearly aligned with the 
objectives outlined in the U.S. National Action Plan on Children in 
Adversity.
    Question. Many of the children fleeing the conflict from Syria are 
suffering from psychosocial trauma and are in need of services to cope 
with the uncertainty around them. What are the U.S. Government and U.N. 
agencies doing to provide quality psychosocial programming for refugee 
children?
    Answer. Psychosocial support to trauma-affected children is a 
cornerstone of the U.S. Government's protection-oriented humanitarian 
response to the Syria crisis. The United States' international 
organization partners, including the Office of the United Nations High 
Commissioner for Refugees (UNHCR), the United Nations Children's Fund 
(UNICEF), the United Nation's Population Fund (UNFPA), and the United 
Nations Relief and Works Agency for Palestine Refugees in the Near East 
(UNWRA), all provide protection and assistance to children affected by 
the conflict inside Syria and those who have found refuge in 
neighboring countries. A number of United States Government (USG)-
funded non-governmental organization (NGO) partners provide specialized 
psychosocial support to children who are survivors of gender-based 
violence and to help cope with trauma associated with violence and 
displacement.
    The impact of war is particularly harsh on the more than one 
million Syrian refugee children in the region. The United States works 
to provide comprehensive assistance to children affected by the 
conflict, consistent with the goals outlined in the U.S. Action Plan on 
Children in Adversity. We continue to work with host governments and 
implementing partners on issues such as increasing access to quality 
education for refugee children and meeting the particular mental health 
needs of this population. We support the multi-stakeholder ``No Lost 
Generation'' initiative, which calls on the international community to 
provide $1 billion to support programs in the region that help children 
affected by the conflict gain access to quality education, reunify 
children with their families, provide protective family care, protect 
children from violence and abuse, provide counseling and psychological 
support, and meet other critical needs.
  --In Syria, over 47,000 Palestinian refugee children are enrolled in 
        the United Nations Relief and Works Agency (UNRWA)-run schools 
        to provide some normalcy for the school day, although often on 
        triple shifts due to closure of some UNRWA schools as a result 
        of access restrictions or displacement. UNRWA is also providing 
        counselling, psychological, and remedial educational services, 
        and has developed self-learning materials for use by 
        Palestinian children whose education has been interrupted.
  --In Jordan, children make up approximately 54 percent of Syrian 
        refugees. U.S. bilateral development support to Jordan 
        strengthens the Jordanian school system, which has enrolled 
        more than 100,000 refugee children, while our humanitarian 
        assistance supports the development of safe spaces for 
        children, establishing additional schools, and funds 
        immunizations for refugee children.
  --In Lebanon, U.S. humanitarian assistance supports programs for 
        refugee children suffering from severe mental distress. In 
        2013, more than 115,000 refugee children received counselling 
        and trauma services from UNICEF. Programs for children are 
        underway in the most affected communities through Social 
        Development Centers (SDCs), community centers, schools, UNHCR 
        registration centers, children's homes, and informal tented 
        settlements throughout Lebanon.
  --In Iraq in 2013, UNICEF and partners in Iraq have vaccinated 
        5,151,600 Syrian and other children against polio, helped 
        ensure access to education for 20,258 refugee children, and 
        provided psychosocial support for more than 11,000 children.
  --In Turkey, U.S. Government contributions to UNICEF have supported: 
        the development of 17 child-friendly spaces (CFS), where 5,000 
        children benefit from CFS activities each week; the training of 
        more than 2,000 teachers in refugee camps; and the construction 
        of pre-fabricated schools in camp and non-camp settings.
  --In Egypt, U.S. Government-funded humanitarian partners have helped 
        more than 2,000 children benefit from child-friendly spaces and 
        have provided education grants to almost 28,000 of the 32,000 
        children enrolled in primary and secondary education.
                                 ______
                                 
         Questions Submitted to Andrew Harper and Ewen MacLeod
            Questions Submitted by Senator Mary L. Landrieu
    Question. What are the U.S. Government and UN agencies doing to 
provide immediate support to host communities in Lebanon to ensure that 
local and national educational infrastructure absorb the large number 
of refugees arriving daily?
    Answer. For nearly 3 years, Syria's children have been the most 
vulnerable of all victims of the conflict, seeing their families and 
loved ones killed, their schools destroyed and their hopes eroded. They 
have been wounded either physically, psychologically, or both. The 
United Nations High Commissioner for Refugees (UNHCR) is working with 
partners across the region to ensure that Syrian children and children 
in host countries have the chance to play and learn in safe, protective 
environments.
    Through the ``No Lost Generation'' campaign, UNHCR, United Nations 
Children's Fund (UNICEF), Save the Children, World Vision and other 
partners across the region are channelling $1 billion into programs 
that, in partnership with governments and local communities, deliver 
safe education and psychological care; provide protection from 
exploitation, abuse, and violence; and offer more opportunities for 
social cohesion and stability in an already volatile region.
    Although formal education is a clear first choice, in Lebanon it is 
already clear that even with double shifts, the Lebanese education 
system will not be able to accommodate all school-aged children. 
According to the Ministry of Education and Higher Education, only an 
additional 90,000 children can be accommodated in the public school 
system in 2013/2014 with capacity support from the international 
community. This means there will be a need for education opportunities 
outside the formal public system for some 500,000 Syrian children. The 
``No Lost Generation'' initiative will scale up access to quality 
education, through formal and non-formal approaches, including by 
introducing accelerated curricula for children who have been out of 
school and by providing vocational training, training of teachers, and 
incentive programs. The initiative will also create safe environments 
that reduce children's exposure to further risks. These programs 
include strengthening national and community-based child protection 
systems, which respond to the needs of girls, boys and families at high 
risk of abuse, neglect, exploitation and violence.
    In 2013, some 30,000 Syrian children enrolled in the Lebanese 
public school and 45,000 vulnerable children accessed non-formal 
education. In 2014, through the ``No Lost Generation'' initiative, 
UNHCR and its partners will continue to work creatively to ensure that 
Syrian children and the children in host communities have a chance to 
learn.
    Question. What psychosocial support is available for refugee 
children?
    Answer. In November, UNHCR released an in-depth survey of Syrian 
refugee children, which found that many Syrian refugee children are 
growing up in fractured families, and that children are often the 
household's primary breadwinners. Although Syrian children may find 
safety in host countries, the war in Syria has had a lasting impact on 
children; many parents report that their children have trouble 
sleeping, horrifying flashbacks, bed-wetting and even speech problems.
    UNHCR and partners are working to provide protective environments 
for Syrian children. Front-line workers are trained to help children 
build coping skills, and experts, community workers, and social workers 
provide individual and group counseling. UNHCR and its partners are 
also strengthening referral and support mechanisms through social 
welfare centers in order to ensure that traumatized children receive 
the support they need. Finally, UNHCR and partners are establishing a 
range of child-friendly spaces so that children can learn, play and 
talk about their experiences in safety.
    Question. The United Nations High Commissioner for Refugees' 
(UNHCR's) Refugee Children in Crisis report indicates that there are 
over 3,700 Syrian children in Jordan and Lebanon living without one or 
both of their parents, or with no adult caregivers at all. The report 
also describes that ``UN agencies and partners help to reunite 
unaccompanied children with their families when this is what they want 
and it is deemed to be in their best interest. When families cannot be 
found or traced, UNHCR and partners help children to find alternative 
arrangements, such as with another family in the community, and 
regularly monitor their well-being and living conditions.''
    Can UNHCR provide data regarding the number of . . . 
  --unaccompanied or separated refugee children living in Jordan and 
        Lebanon that have been reunified with their families?
  --unaccompanied or separated children that have been connected with 
        other families in the community? Is this by way of an official 
        domestic adoption? What is the screening process to ensure that 
        these new settings are in safe and emotionally nourishing 
        environments?
  --unaccompanied or separated children living in orphanages in Jordan 
        and Lebanon. Are there ongoing efforts to find families for 
        these unparented children, as well?
    Additionally, what activities are UNHCR and the State Department 
implementing to ensure that, once funding from governmental and private 
international donors are no longer available, the Governments of 
Lebanon and Jordan have the capacity to provide medical, educational, 
and social services to the massive influx of refugee children?
       unaccompanied and separated children in jordan and lebanon
    Answer. Identification and care of unaccompanied and separated 
children (UASC) is one of the five thematic priorities for child 
protection actors, as outlined in the Syria Regional Response Plan 
(RRP6). In 2013 in Jordan, UNHCR, United Nations Children's Fund 
(UNICEF), International Medical Corps (IMC), Noor Al Hussein 
Foundation/Institute for Family Health (NHF/IFH) and International 
Rescue Committee (IRC) have identified and registered 402 unaccompanied 
(140 girls, 262 boys) and 962 separated (370 girls, 592 boys) children 
in camps and host communities. Out of the 402 unaccompanied children 
(UAC), 259 children (58 girls) have been reunited with their families 
either inside the camp (128) or outside the camp (131). The remaining 
children have been placed in interim family-based care arrangements and 
are monitored regularly. In 2013 alone, 4,670 unaccompanied and 
separated children (UASC) and children at risk (2,438 girls and 2,232 
boys) have received multi-sectoral services and continue to be 
monitored as needed. The Inter-Agency SOPs & referral pathways from 
Jordan show how UNHCR is working together with UNICEF, International 
Committee of the Red Cross (ICRC) and other agencies in order to 
facilitate family reunification and to reduce family separation. Let us 
know if you are interested in seeing these.
    In Lebanon, the response for UASC is undertaken within the case 
management process for children at high risk. Of the UASC, most of the 
children identified are separated, very few are unaccompanied. For 
example, Lebanon reported 2,440 UASC (in total) in October 2013--the 
majority separated. As identification systems are improved through 
increase in assessment in Lebanon, numbers are expected to increase. 
Many UAC identified during the registration exercise are very quickly 
reunified with their family. The remaining number are referred to ICRC 
for tracing and reunification. Unaccompanied and separated children 
continue to be a priority target group at risk. The Child Protection 
actors, in line with RRP6 will prioritise high risk cases through a 
Case Management sub working group (including UASC) and in close 
collaboration with UNICEF's national work with relevant line Ministries 
and actors an integrated national case management system and tools will 
be established/strengthened as a priority in order to be able to 
respond to children at high risk and in need of additional support so 
they can receive the necessary assistance.
    UNHCR's long standing policy--shared by other key child protection 
actors--is that adoption or other forms of permanent care are not 
recommended in an emergency context as it will take time until all 
efforts have been exhausted to determine whether the child's family can 
be traced and the child reunited. The United Nations Guidelines for the 
Appropriate Use and Conditions of Alternative Care for Children (2007) 
further reemphasize this point.
    In Jordan, alternative care placements for refugee children are 
never through official domestic adoption. UNHCR, UNICEF and Save the 
Children International are working on finalizing Alternative Care 
Guidelines together with the Ministry of Social Development (MoSD), 
including a formalization of the alternative care arrangements by the 
courts. In Jordan, alternative care arrangements are monitored 
regularly by UNHCR and partners (NHF/IFH, Jordan River Foundation 
(JRF), IMC, IRC) through home visits and assessments. Potential foster 
families are identified and screened by UNHCR together with specialized 
partners IRC (in the camps) and NHF/IFH (in Amman and surrounding 
areas). In 2014, UNICEF and UNHCR are exploring ways of jointly funding 
the MoSD to support their ownership of the process of identifying and 
monitoring alternative care arrangements, including by increasing the 
number of behavioural monitors (social workers) and by providing 
logistic & capacity-building support to the MoSD. UNHCR Jordan is not 
aware of any refugee children accommodated in orphanages in Jordan. 
This information has recently been verified with the MoSD (the 
Government of Jordan (GoJ) entity responsible for licensing and 
monitoring orphanages and other care institutions for children).
    In Lebanon, the model of alternative care for children at risk 
including UASC will be developed together with Ministry of Social 
Affairs (MOSA), UNICEF and a few key specialized organisations (local 
and international). Refugee children in institutions that UNHCR has 
identified are street children who have been often referred by the 
police. The specific recommendations in response to UASC includes 
amongst other things the need to identify, monitor and/or establish 
interim and long-term alternative care/shelter options. However, this 
will not include permanent adoption as it is important for to respect 
the principle of family unity and ensure adequate time for tracing and 
other options to be pursued according to the best interests of each 
individual child.

                         CONCLUSION OF HEARINGS

    Senator Boozman. And with that, the hearing is adjourned.
    [Whereupon, at 1:05 p.m., Tuesday, December 10, the 
hearings were concluded, and the subcommittee was recessed, to 
reconvene subject to the call of the Chair.]

</pre></body></html>
